<html>
<title> - THE CASE FOR SPACE: EXAMINING THE VALUE</title>
<body><pre>[Senate Hearing 111-508]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-508

                THE CASE FOR SPACE: EXAMINING THE VALUE

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON SCIENCE AND SPACE

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 21, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation









                  U.S. GOVERNMENT PRINTING OFFICE
56-407 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
             Ann Begeman, Acting Republican Staff Director
              Brian M. Hendricks, Republican Chief Counsel
                                 ------                                

                   SUBCOMMITTEE ON SCIENCE AND SPACE

BILL NELSON, Florida, Chairman       DAVID VITTER, Louisiana, Ranking
DANIEL K. INOUYE, Hawaii             OLYMPIA J. SNOWE, Maine
JOHN F. KERRY, Massachusetts         JOHN ENSIGN, Nevada
BARBARA BOXER, California            JOHN THUNE, South Dakota
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
MARK WARNER, Virginia












                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 21, 2009.................................     1
Statement of Senator Nelson......................................     1
Statement of Senator Vitter......................................     3
    Prepared statement...........................................     3
Statement of Senator Hutchison...................................     4
    Prepared statement...........................................     6

                               Witnesses

Stephen I. Katz, M.D., Ph.D., Director, National Institute of 
  Arthritis and Musculoskeletal and Skin Diseases, National 
  Institutes of Health, U.S. Department of Health and Human 
  Services.......................................................     7
    Prepared statement...........................................     9
Dr. Scott Pace, Director, Space Policy Institute, Elliott School 
  of International Affairs, The George Washington University.....    12
    Prepared statement...........................................    13
Lennard A. Fisk, Ph.D., Thomas M. Donahue Distinguished 
  University Professor of Space Science, University of Michigan..    16
    Prepared statement...........................................    18
Jeanne L. Becker, Ph.D., Associate Director, National Space 
  Biomedical Research Institute and Chief Scientist, Astrogenetix    21
    Prepared statement...........................................    22
Helen Greiner, CEO, The Droid Works..............................    25
    Prepared statement...........................................    27

 
                          THE CASE FOR SPACE: 
                          EXAMINING THE VALUE

                              ----------                              


                      WEDNESDAY, OCTOBER 21, 2009

                               U.S. Senate,
                 Subcommittee on Science and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3 p.m. in room 
SR-253, Russell Senate Office Building, Hon. Bill Nelson, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Good afternoon. This is a hearing of the 
Science and Space Subcommittee. I have been looking forward to 
this topic being discussed, getting it out there and on the 
record, and distributed so that people can understand some of 
the benefits of the spinoffs, and the extraordinary technology 
that has come as a result of the space program. Thank you for 
coming and participating today.
    Tomorrow, the White House will receive the long-awaited 
``Augustine Report.'' A summary of the report was released last 
month. It stated that U.S. human spaceflight, once a program 
cherished as a source of the greatest level of national pride, 
I quote, ``appears to be on an unstable trajectory,'' end of 
quote. The summary stated that, quote, ``At present, our space 
program is being asked to pursue goals without the 
appropriately allocated resources,'' end of quote. We 
anticipate that the report that we will see tomorrow will say 
exactly the same thing. This, by the way, is what Senator 
Hutchison and I have been saying for a number of years.
    The release of this report will provide the President with 
information to start to make a choice about the human 
spaceflight program. We can continue on the path that we're on, 
which is underfunding and underallocating our space program, or 
we can choose a different course of action. We can choose to 
act by ensuring that appropriate resources are allocated to 
meet the goals that we're trying to achieve.
    Currently, the space program is funded at less than 1 
percent of the total Federal budget. If you ask the average 
American what they think the program is funded at, they would 
think that it is a much higher figure than that. Less than 1 
percent of the Federal budget. This is a testament to the value 
the average American places on our space program. They think 
it's funded at a much higher level, and to the high levels of 
return that we gain on relatively small investments.
    Our space program has always paid back extraordinary 
dividends, both tangible and intangible. The return is vastly 
greater than the initial investment. We're going to discuss 
some of those tangible and intangible benefits today.
    A historical example of the intangible benefits of a well-
funded space program--well, just look what happened to the 
generation that got inspired with the NASA of the 1960s and the 
1970s. That generation has produced some rather terrific 
innovators. I'll just name a few: Sir Richard Branson, Jeff 
Bezos, Elon Musk. They got their motivation from seeing the 
extraordinary accomplishments of NASA. As they got inspired, 
they helped create new sectors of our economy: Bezos, founder 
of Amazon; Elon Musk, creator of PayPal; Branson, founder of 
the Virgin Group; and a whole spinoff of high-tech jobs for 
Americans. Each of those entrepreneurs is now returning to 
their first passion: space. Branson, Virgin Galactic, seeks to 
fly regular citizens into space. Bezos created Blue Origin. And 
Musk is aiming to have a commercial rocket.
    An interesting turn of events, NASA, the original 
inspiration, may benefit from these new capabilities as we look 
to the commercial sector, which is part of the Augustine 
Commission Report. As those commercial capabilities mature, the 
result could be another stimulation of the economy and the 
creation of jobs. All of this stemming from NASA and the human 
spaceflight program, in particular, as the initial inspiration.
    The International Space Station is another example. But, it 
is much more in a tangible sense instead of an intangible 
sense. While the initial investment in the ISS has been very 
high, this orbiting laboratory, named by Kay Bailey Hutchison 
as a National Laboratory, is just now starting to show a return 
on this investment. Just now. Its many economic, scientific, 
and social payoffs are soon to be realized. Breakthroughs in 
medicine, material science, Earth observation, renewable 
energy, and socially; as nations live together in a confined 
environment and continue to try to get along.
    As NASA develops the architectures necessary to push these 
frontiers further out, beyond low-Earth orbit, the additional 
benefits will be realized. But realization of these benefits is 
not a given without Presidential leadership. In other words, 
President Obama's decision to fund NASA at the level 
commensurate with these lofty goals.
    Last week, the President hosted schoolchildren on the South 
Lawn for a star party. The President took his children, and all 
of those young people had the opportunity to view, in vivid 
detail, the craters of the Moon, the rings of Saturn, the 
colors of Jupiter, and the belt of the Milky Way. The 
wonderment displayed in the eyes of those children, and oh, by 
the way, adults as well, proves once again that space inspires.
    The Apollo program was prologue. Our future in space now is 
to be written. A suitably-funded space program is the best 
catalyzing element to gather and organize the energies and 
abilities of a Nation. That program is then going to return 
dividends, perhaps the most important of which is to inspire, 
encourage, and motivate the next generation. A generation that 
will continue to produce scientists, engineers, mathematicians, 
and educators.
    So, we want, in this hearing today, to look forward to 
exploring the benefits of a well-funded space program, and put 
on the record some of the things that many of us take for 
granted and some of us don't know about.
    Senator Vitter?

                STATEMENT OF HON. DAVID VITTER, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Vitter. Thank you very much, Mr. Chairman. Thanks 
for calling this important hearing, and I certainly join you 
and Senator Hutchison in welcoming our very, very distinguished 
panel.
    This is, you're right, exactly the sort of conversation we 
need, not just here in this Subcommittee, but over and over and 
over in all sorts of settings all across America, to remind 
ourselves of the tangible value and benefit the space program 
has brought us and can continue to bring us.
    You know, virtually every public opinion poll on the 
subject shows great broadbased American public support for the 
NASA programs, but I think if you ask most of those people 
exactly why or what are some of the precise examples, they 
couldn't give that to you. And we really need to fill in those 
blanks and remind folks of some of those examples and some of 
that concrete evidence. And this discussion today will help do 
that.
    In Dr. Fisk's statement, he put it a slightly different 
way, but I think it's somewhat the same idea. He said, ``It may 
well be that we don't focus on that or know of those examples 
right off the top of our head because they're so pervasive, 
because the benefits of the space program and their utilization 
throughout our economy and society is so common and so broad, 
we just take a lot of this for granted.'' But, I think, it's 
important to highlight where many of these advances came from 
today and in future conversations.
    So, we need to do that--again, not just in this 
conversation, but over and over--to remind ourselves of the 
tangible benefits, the connection, what has come out of it, and 
what continues to develop from space exploration. And 
obviously, we need to connect that in a very basic way to the 
ongoing discussion of the future of the program and the budget 
of the program. So, I look forward to being a part of the 
conversation.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Vitter follows:]

Prepared Statement of Hon. David B. Vitter, U.S. Senator from Louisiana
    I am delighted to be here at this important hearing, Mr. Chairman, 
and join you in welcoming our very distinguished panel. I believe this 
is an important discussion we are having today, and one that needs to 
be held over and over again with a great many people, not only in 
leadership positions, but around the country.
    While I believe just about every national survey that asks about 
the value of space has seen very broad support for civil space--usually 
expressed as ``NASA programs''--among the American public, I doubt 
whether very many of them--or many of us in the Congress--could provide 
a detailed answer to the question of why they feel it is important, or 
why they support its continuation. In Dr. Fisk's statement, I noted 
that he suggested it may well be that the reason for that is that the 
impacts and benefits of space exploration and utilization are so 
pervasive in our world today that we just take them for granted, and 
don't realize that they are really a result of prior investments in 
space activities and research.
    I believe one of the reasons, Mr. Chairman, you wanted to hold this 
hearing--and I wholeheartedly agree--is to try to remind all of us that 
what we do in the civil space arena as a Nation, does, in fact, have a 
very important impact, not only in our daily lives, but on our very 
health, well-being, and security as a Nation.
    We need to understand what is unique about space that enables it to 
play a critical role in technology development, scientific enhancement, 
and in fields like medical research. We need to hear the kinds of 
examples we will hear today to bring that message, if you will, ``down 
to Earth'' and make it easier for our colleagues and our constituents 
to see. We all need to be able to see that message clearly, as we face 
the enormous challenges facing our country, which sometimes lead us to 
forget the things that lead to longer-term stability and prosperity in 
our attempts to find answers to the immediate and pressing problems.
    Gaining an understanding of how our civil space programs contribute 
to that underlying economic stability and even national security, is 
what I believe this hearing is about and I look forward to hearing from 
our witnesses. Thank you, Mr. Chairman.

    Senator Nelson. I want to invite Senator Hutchison, who is 
the Ranking Member of the full Committee and who is as much a 
space advocate as I am, to make her statement. I've had the 
privilege of working with her on this Subcommittee for years.
    Thank you for being here, Senator.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you very much, Mr. Chairman. And 
you have been the champion that has kept NASA and the 
importance of space exploration at the forefront of your 
priorities, and it is mine, as well. And I'm so glad that we 
have such committed people--and Dr. Vitter representing 
Louisiana, which has a huge NASA component, as well--Senator 
Vitter, sorry. Your brother's a doctor.
    Senator Vitter. Look like I got a Ph.D. in the process----
    [Laughter.]
    Senator Hutchison. But, I really am so pleased that we're 
doing this because I have just a very special feeling and 
connection about the ``National Laboratory'' designation that 
we did put forward in our 2005 authorization, working then with 
my counterpart, Senator Nelson. And to me it was the most 
innovative thing that we have done in the process of 
authorizing NASA, to make sure that all of the investment that 
we are making in the Space Station, and have been making for 
all these years with the shuttles, would be fully utilized.
    And when NIH became the first leader to step forward and 
say they wanted to be partners in the Space Station and have 
the ability to use the microgravity conditions--Senator Nelson 
and I were there, along with Senator Mikulski, at the great 
signing of the document between NASA and NIH.
    So, I have to tell you that Jeff Bingham, who is my--well, 
he's not my Staff Director anymore, but he's yours--said his 
heart sang when he read your testimony, Dr. Katz--and mine, 
too--because now we are beginning to see the real results. And 
when you--I won't steal your thunder, but I do want you to take 
the time to point out the specifics. But, when you said that in 
the experiments already on the ISS that the salmonella 
bacterium becomes more infectious in microgravity and thus may 
become better inducers of immune responses, I just thought, 
that's an example of what we can really do up there to 
accelerate research and see what can be done to start 
developing vaccines, of course, to treat diseases.
    I also want to say, Dr. Becker, that in your testimony 
there was also reference to what can be done in the 
microgravity conditions, because if there is one priority I 
have, it is that we get our money's worth and see what can come 
from the Space Station, because we've already put the money in, 
and to walk away from it, without fully using it would be just 
foolish, and I don't want us to do that.
    So, I will just say that I'm very excited about your 
testimony, all of you, but particularly the ISS part. And I 
want to just point out a few of the other examples that have 
made a difference in the quality of life on Earth because we 
went into space and made the investment in NASA itself: 
satellite-based communications, which have revolutionized 
communications globally; precise navigation capability on the 
ground and in the air--I mean I hardly get in a car anymore 
that doesn't have one of those global positioning mechanisms. I 
don't have one, I wish I could afford it, but maybe, with more 
research, we'll get it to be more affordable. But it's so 
exciting to see that because of the satellites, we can find 
anything on the ground, and, of course, also in the air. We 
have advanced diagnostic and medical treatment equipment and 
new drugs and medications have been made possible by the unique 
lab environment in microgravity. The need to reduce the weight 
of spacecraft led to microminiaturization processes that have 
been applied to manufacturing instruments and devices that have 
nothing to do with space but do impact our lives, such as 
electronic wrist watches, cell phones, video games--and believe 
me, I've got 8-year-olds who are addicted to Nintendo games; 
electronic teaching devices, and other examples of 
microtechnology.
    And, the need to assure that Gemini and Apollo astronauts 
had safe food to eat during their missions led to the 
development of the most revolutionary institutional innovation 
to ensure food safety in our century. And since those projects 
were taken on for our astronauts, the FDA have now codified 
those processes in regulations, procedures that make all of our 
food safer.
    So, the bottom line is, we have made a strong beginning. I 
am so pleased to hear those results start coming in, and the 
shuttles that are going to finish out the Space Station--
really, I have to say that our committee had a hand in adding 
one more mission to the schedule of shuttles, to carry the 
alpha-magnetic spectrometer to the ISS because of the great 
testimony that we had from Dr. Sam Ting, the Nobel Laureate 
from MIT, in a hearing about being able to start looking into 
cosmic rays and dark energy and dark mirror, and the potential 
to use that for energy development. The shuttles did not have 
the alpha-magnetic spectrometer on the manifest of missions, 
and we were told that there would not be an increase in 
available missions. But, Dr. Ting was so compelling in one of 
our hearings that we have been able to add that flight, so that 
not only will we be able to use the Space Station, but to be 
able to start seeing if we can capture cosmic rays and see what 
they tell us about alternative energy sources for the future.
    So, I'm very excited about your leadership, Mr. Chairman 
and Senator Vitter, and also all of you helping us utilize to 
the best of our ability the investments that we're making in 
space.
    And I will just end by saying that we have a group of NASA 
employees from Johnson--if you'd raise your hands, we welcome 
you. You are doing----
    [Applause.]
    Senator Hutchison.--great work for us, and I know you're at 
a training program here this week, and it worked out that you 
changed your schedule to come and hear this very exciting 
testimony. And many of you in the audience are the reason that 
we have been able to make these great strides.
    So, thank you, Mr. Chairman.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas
    Thank you, Mr. Chairman, for scheduling this important hearing to 
begin a comprehensive examination of the benefits and value of space 
exploration.
    I say ``begin,'' because a single hearing can merely scratch the 
surface of the benefits that our Nation and, indeed, the world have 
received during the past 50-plus years of the Space Age, not to 
mention, describing the potential value of future space exploration.
    The numerous benefits attributed to our Nation's investment in 
space and research are all around us. Here are just a few examples: 
Satellite-based communications; precise navigation capability on the 
ground and in the air; advanced diagnostic and medical treatment 
equipment; new drugs and medications made possible by the unique 
laboratory environment in microgravity.
    We tend to take these innovations for granted. We often forget that 
they are a direct or indirect result of space-based experimentation 
from advances in technology that were first required to meet the 
demands and challenges of space flight.
    For example, the need to reduce the weight of spacecraft led to 
microminiaturization processes have since been applied to manufacturing 
instruments and devices that have nothing to do with space, but 
directly impact our lives. Whether through an electronic wrist-watch or 
a cell phone or a video game or an electronic teaching device, micro-
technology has transformed our lives.
    In addition, the need to ensure that Gemini and Apollo astronauts 
had safe food to eat during their missions led to the development of 
the ``Hazard Analysis and Critical Control Point process,'' which has 
been hailed as ``the most revolutionary institutional innovation to 
ensure food safety of the twentieth century.'' The essential principles 
of this process, which began in 1959, have since have been codified in 
FDA regulations and procedures, helping to make all our foods safer.
    Mr. Chairman, I look forward to hearing more examples from our 
witnesses today, and hope that we will all be better able to recognize 
the great value of our efforts in space exploration and the dramatic 
improvements in our daily lives that come from meeting the challenges 
of space exploration and using the unique environment to which it gives 
us access.
    In my view, this is an area where the question should not be, ``Can 
we afford to do this?'' The real question is, if we are concerned about 
national security, scientific leadership, and economic competitiveness 
of our country, ``How can we afford not to do this?''
    Thank you again, Mr. Chairman. I look forward to hearing from the 
witnesses.

    Senator Nelson. Thank you, Senator.
    We have a star-studded panel: Dr. Katz, Dr. Pace, Dr. Fisk, 
Dr. Becker, and CEO Greiner. What I'm going to ask you to do is 
to take about 5 minutes each so that we can really get into 
some serious study with our questions. Your written statements 
will be part of the record in full, so if you all would try to 
adjust accordingly. Your testimony, that I have seen, is 
riveting, and we want everyone to have the opportunity to hear 
it.
    Dr. Katz is the Director of the National Institute of 
Arthritis and Musculoskeletal and Skin Diseases. It's a 
position that he's held since 1995, and he's also the senior 
investigator in the dermatology branch of the National Cancer 
Institute. During this illustrious career, Dr. Katz has trained 
a large number of outstanding researchers in the U.S., Japan, 
Korea, and Europe. Now they're leading their own high-quality 
independent research programs. He's the recipient of the 
Distinguished Executive Presidential Rank Award, the highest 
honor that can be bestowed upon a civil servant.
    So, welcome, Dr. Katz.
    Then I'll just go right on down the line with each of you.
    Dr. Katz?

      STATEMENT OF STEPHEN I. KATZ, M.D., Ph.D., DIRECTOR,

 NATIONAL INSTITUTE OF ARTHRITIS AND MUSCULOSKELETAL AND SKIN 
  DISEASES, NATIONAL INSTITUTES OF HEALTH, U.S. DEPARTMENT OF 
                   HEALTH AND HUMAN SERVICES

    Dr. Katz. Thank you very much, Mr. Chairman and members of 
the Subcommittee. I'm really delighted to be here to expand 
upon some of the points that I made in my written testimony.
    As NIH is the primary Federal agency for conducting and 
supporting medical research, we manage a portfolio that 
addresses not only public health needs--current public health 
needs--but also we invest heavily in basic biology that will 
lead to future answers to our public's health needs.
    I want to expand, in response to Senator Vitter, on some of 
the tangible benefits that we've seen, just to publicize a few 
of them; two of them, most notably, that I have in my written 
testimony that I'd like to expand on. One is the heart pump 
that has been devised and was started using an enormously-sized 
pump from the Space Shuttle. And over the past two decades, 
that pump has been reduced to a 4-ounce object that can 
actually be implanted in people or utilized while people are 
waiting for heart transplants. And now there's a grant from the 
National Heart Lung and Blood Institute to try to utilize that 
pump as actually an artificial heart, to obviate the need for 
transplantation.
    Another notable advance that is going--that we will see in 
the very near future comes from the NIH's National Eye 
Institute, where a fiber optic probe has been used to identify 
very small changes in protein. And this was initially used on 
the Station to identify early crystal formation. Now what could 
the medical use of that be? Cataracts, when they form, the 
earliest identification of cataracts are seen as little clumps 
of protein in the lens. Now, the earlier you can identify those 
clumps, the earlier you can tell a person to obviate some of 
the habits--the lifestyle habits that they're utilizing. For 
example, avoid sun exposure, et cetera. So, this fiber optic 
probe is going to be used as a--it's going to be a handy thing, 
and it's going to be utilized by many physicians, and others 
perhaps, to be able to identify the very earliest cases of 
cataract, to warn people against this. Two very tangible 
advances that we've seen.
    Now, the NIH is proud to continue its partnership with 
NASA. The partnership was going on for quite some time, but, as 
Senator Hutchison mentioned, in September 2007, we entered into 
a collaboration that helps American scientists use the Space 
Station. And it was really the designation of the Laboratory--
you referred to Jeff Bingham, I will refer to Jeff Bingham, as 
well, because it was Jeff who really brought some of us 
together under the--onto the--with the idea that this was a 
National Laboratory and should be utilized by all of us, in 
government and outside of government and outside of the 
country, as a National Laboratory.
    So, we were very pleased that you and Senator Nelson were 
there--was--were there--and, as well, Senator Mikulski joined 
us--when the two heads of the agencies, both NASA and the NIH, 
signed the agreement to a--to have a Memo of Understanding that 
we are going to leverage resources for a common good to improve 
health on Earth by utilizing the Station for this particular 
effort.
    We are enthusiastic partners. The NIH are made up of many 
institutes, and we are enthusiastic partners, because the Space 
Station offers an unprecedented opportunity for research that 
could benefit human health on Earth. The Station, the National 
Laboratory, provides a virtually gravity-free environment that 
can unmask cellular and molecular mechanisms that underlie 
human diseases. And it also provides a wonderful environment to 
test certain types of healthcare delivery as well as health 
monitoring technologies that many of us at NIH are interested 
in pursuing, and I know that people at NASA are, on the other 
hand, very interested in pursuing, as well.
    My institute, the National Institute of Arthritis and 
Musculoskeletal and Skin Diseases, is particularly interested 
in what space can teach us and what space has taught us about 
human diseases, particularly diseases of the bones and muscles. 
One of the classic examples of what happens to humans after 
they've been in space for some time is, they loose a tremendous 
amount of bone mass, as well as muscle. This has been a problem 
for astronauts, but it also provides us with the knowledge of 
why actually does this happen and why does it happen so 
rapidly. Why do we see a 1- to 2-percent decrease in bone mass 
per month--on average--per month in an individual who goes up 
in space?
    Well, it has taught us a lot about the basic biology of the 
cells that make up bone. When I was in medical school, we 
always thought of bone as being an end-stage organ that was 
just eroded with time--as you age, you lost bone--but now we 
know that bone is actually a highly-active metabolic organ 
which is constantly being built up and being broken down. And 
we're learning a lot from what's going on in space, and we hope 
to learn a lot more from some of the studies that are going to 
be done.
    NASA personnel have conducted all National Laboratory 
experiments thus far without the benefit of--and I think it was 
mentioned--without the benefit of having a fully operational 
Space Station. The initial findings, however, have demonstrated 
that the weightlessness of space provides a unique platform 
from which scientists can do more than simply answer questions 
about the effects of space travel on the human body. There's a 
lot of basic biology that is to be explored.
    As part of its partnership with NASA, the NIH is asking the 
Nation's biomedical research community to develop innovative 
hypotheses that astronauts could test on the Station.
    So, this is really what has come out of that Memo of 
Understanding. There are nine institutes at the NIH that have 
signed on, a broad array of institutes that shows a broad 
interest in health--in various aspects of health--all 
dimensions of health, basically--in order to support studies 
that will be performed by scientists. They will be designed on 
Earth, they will be carried out by our astronauts in space, and 
that means that there has got to be a very close coordination 
between the scientist who wants to do the science but is really 
doing it with a surrogate scientist in space. And, as you know, 
many of the astronauts are outstanding scientists who have 
carried out these programs for some years.
    So, we have made a commitment to having three rounds of 
competitions for NIH support for these types of studies. 
Results from the first competition should be announced in the 
Summer of 2010. As I said, nine institutes have signed onto it, 
and the diversity of their missions really underscores the idea 
that we are very anxious to utilize this National Laboratory.
    In closing, let me say that the Space Station, the National 
Laboratory, provides a special microgravity environment that 
Earth-based laboratories cannot replicate. One can try to 
simulate, but not replicate, what goes on in the Space Station. 
Congress's designation of the Station as a National Laboratory 
speaks to the importance that the American people place on 
scientific discovery, and I think it was the designation of the 
National Laboratory that really brought this leveraging between 
NASA and the NIH and crystalized that cooperation.
    So, for that I thank you. And after the others testify, I'm 
happy to answer any questions to all of you.
    [The prepared statement of Dr. Katz follows:]

Prepared Statement of Stephen I. Katz, M.D., Ph.D., Director, National 
Institute of Arthritis and Musculoskeletal and Skin Diseases, National 
   Institutes of Health, U.S. Department of Health and Human Services
    Mr. Chairman and members of the Subcommittee:
    I am Dr. Stephen Katz, Director of the National Institute of 
Arthritis and Musculoskeletal and Skin Diseases at the National 
Institutes of Health (NIH), an agency of the Department of Health and 
Human Services. I am proud to represent the NIH as its liaison to the 
National Aeronautics and Space Administration (NASA) and recently 
finished serving on the NASA Administrator's Advisory Council. I am 
pleased to testify about the opportunities that access to the 
laboratory of space provides to researchers who are committed to 
improving the health of people on Earth.
    As the primary Federal agency for conducting and supporting medical 
research, the NIH manages a portfolio that addresses immediate public 
health needs while encouraging basic science research that may lead to 
improved health. Much of its budget supports basic research into the 
biological processes underlying health and disease. It fills a void in 
our Nation's research and development pipeline by encouraging basic, 
clinical, and epidemiological studies that the commercial sector would 
not pursue because they may not be immediately profitable.
NASA Technologies that Improve Health on Earth
    Most of my testimony focuses on medical discoveries that our 
continued investment in space exploration may produce. But first, I am 
going to highlight two technologies that are well on their way to 
addressing serious public health threats to American lives.
    About 5 million people in the United States have heart failure, 
which causes about 300,000 deaths each year. The NIH's National Heart, 
Lung, and Blood Institute is funding a grant,\1\ to improve a treatment 
for heart failure patients that is based on NASA's Space Shuttle 
technology. The original device began as a main-engine pump for the 
Space Shuttle that was the size of the Shuttle's deck but, over two 
decades, engineers miniaturized it into a 4-ounce version that surgeons 
can implant into patients to keep them alive until they can receive 
heart transplants. Now, NIH grantees are testing whether they can 
further modify it into a total artificial heart that would eliminate 
the need for risky transplants of human organs, which entail lifetime 
regimens of immunosuppressant drugs that leave patients susceptible to 
infections.
---------------------------------------------------------------------------
    \1\ ``A Novel Approach to Cardiac Replacement with Continuous Flow 
Pumps,'' NIH grant number R01-HL085054.
---------------------------------------------------------------------------
    Earlier this year, researchers from the NIH's National Eye 
Institute demonstrated that a compact fiber-optic probe originally 
developed for the space program also has a medical application. The 
non-invasive probe detects cataracts well before doctors can diagnose 
them with conventional techniques. Cataracts are the leading cause of 
vision loss worldwide, but people can reduce their risk by making 
simple lifestyle changes. The new, non-invasive eye test detects the 
earliest damage. By providing a warning before vision-impairing damage 
occurs, the test could encourage people to take protective measures--
such as decreasing sun exposure, quitting smoking, stopping certain 
medications, and controlling diabetes--that might preserve their 
eyesight by slowing or halting cataract formation.
The International Space Station's Potential Contribution to Biomedical 
        Research and Technological Development
    You may have heard of these, and many other, examples from NASA. 
The NIH is proud to continue its partnership with NASA to make 
additional discoveries through research activities such as the ones 
described above. The NIH also looks forward to the conceptual and 
technological breakthroughs that are likely to emerge from the unique 
environment of the International Space Station (ISS) National 
Laboratory, and expects some of these advances will speed progress 
toward important medical interventions.
    In September 2007, the NIH and NASA entered into a collaboration 
that helps American scientists use the ISS. Chairman Nelson, Senator 
Hutchison, and Senator Mikulski joined the heads of both agencies at a 
ceremony at the U.S. Capitol to celebrate the signing of a Memorandum 
of Understanding. The event, which marked a milestone in a long 
partnership to advance scientific discovery, signaled the availability 
of the ISS as a platform for biomedical experiments that extend beyond 
NASA's core interests.
    The NIH is an enthusiastic partner because the ISS offers an 
unprecedented opportunity for research that could benefit human health 
on Earth. Compared with the Earth-bound laboratories where more than 
325,000 NIH-funded scientists conduct experiments every day, the ISS 
National Laboratory provides a virtually gravity-free environment that 
can unmask cellular and molecular mechanisms that underlie human 
diseases. It also provides an extreme environment for testing health 
care delivery and health monitoring technologies.
    As Director of the National Institute of Arthritis and 
Musculoskeletal and Skin Diseases, I am especially interested in what 
space can teach us about human diseases of the bones and muscles. Since 
the beginning of the space program, researchers have known that 
prolonged periods of weightlessness cause bones and muscles to 
deteriorate. The ISS provides a stable platform on which scientists can 
study the molecular basis of these effects for the eventual benefit of 
people who suffer from fragile bones or from muscle-wasting diseases. 
Because the deterioration experienced in space is similar to conditions 
associated with aging, such findings could affect everyone who is 
fortunate enough to live beyond middle age.
    The near-absence of gravity also provides researchers with 
opportunities to better understand the human immune system. In 2001, 
when the ISS was barely a year old, NASA astronauts and NIH-funded 
researchers were addressing important questions about the mechanisms 
that are involved as the immune function becomes compromised. The 
National Laboratory also can provide insights into how bacteria and 
viruses cause disease. For instance, experiments on the ISS already 
have shown that agents like the Salmonella bacterium become more 
infectious in microgravity and thus may become better inducers of 
immune responses.
    NASA personnel have conducted all National Laboratory experiments 
thus far without the benefit of a fully operational ISS. The initial 
findings, however, have demonstrated that the weightlessness of space 
provides a unique platform from which scientists can do more than 
simply answer questions about the effects of space travel on the human 
body. The data have taught us that true microgravity cannot be 
simulated on Earth, and it affects individual cells and multicellular 
organisms in ways Earth-based experiments can hardly predict. Moreover, 
they proved that the ISS has the potential to revolutionize how we 
view:

  <bullet> basic biological or behavioral mechanisms associated with 
        maintaining health or developing disease,

  <bullet> normal or pathological physiology and metabolism, and

  <bullet> cell repair processes and tissue regeneration that occur 
        naturally or are enhanced through medical interventions 
        following injury or aging.
NIH Activities to Encourage the Use of ISS Resources
    Most ideas for NIH-funded studies come from investigators at 
universities and medical schools around the country. Therefore, as part 
of its partnership with NASA, the NIH is asking the Nation's biomedical 
research community to develop innovative hypotheses that astronauts 
could test on the ISS. The agency is encouraging a new cadre of health 
researchers from a variety of disciplines to incorporate the space 
environment into their experiments, and it will support them as they 
prepare their experiments for launch and analyze their data following a 
mission.
    Grant applications will be subjected to NIH peer review consistent 
with Federal regulation.\2\ However, the application process for grants 
to conduct research on the ISS will differ slightly from that for most 
other NIH grants. Because very few people outside of NASA have 
experience living and working in microgravity, applicants will need to 
work closely with NASA if they are to develop projects that are likely 
to give meaningful results. Astronauts have told us that life on the 
ISS is unlike anything most of us can imagine--flames burn differently, 
water flows differently, and chemical solutions mix differently. These 
distinctions, as well as the practical equipment, laboratory space, and 
personnel constraints facing every investigator who engages in 
collaborative research, will need to be considered as researchers who 
are looking to secure NIH dollars design their experiments. Ultimately, 
NASA personnel on the ISS will be using space-based laboratory 
equipment and data processing capabilities to conduct the experiments 
that the NIH funds--so the sooner biomedical researchers engage them in 
the process, the better their likelihood of success.
---------------------------------------------------------------------------
    \2\ 42 CFR Part 52h.
---------------------------------------------------------------------------
    NIH is hosting three rounds of competitions. Results from the first 
should be announced in the summer of 2010. The NIH Institutes and 
Centers that agreed to participate in this initiative are the:

  <bullet> National Cancer Institute

  <bullet> National Center for Research Resources

  <bullet> National Heart, Lung, and Blood Institute

  <bullet> National Institute on Aging

  <bullet> National Institute on Alcohol Abuse and Alcoholism

  <bullet> National Institute of Arthritis and Musculoskeletal and Skin 
        Diseases

  <bullet> National Institute of Biomedical Imaging and Bioengineering

  <bullet> Eunice Kennedy Shriver National Institute of Child Health 
        and Human Development

  <bullet> National Institute of Neurological Disorders and Stroke

    The diversity of their missions underscores the promise that the 
National Laboratory holds for human health. Any NIH-funded project that 
uses ISS resources will be consistent with existing NIH priorities and 
will be relevant to improving human health. Prospective researchers 
will articulate the questions they are asking, design the experiments 
that astronauts will perform in space, and provide cogent explanations 
as to why the microgravity environment of the ISS is essential for 
their studies.
    In closing, the ISS provides a special microgravity environment 
that Earth-based laboratories cannot replicate. Congress's designation 
of the ISS as a National Laboratory speaks to the importance that the 
American people place on scientific discovery. Thank you for the 
opportunity to present this snapshot of how NIH activities with NASA 
should contribute to biomedical research and technological development. 
I will be happy to answer any questions that you may have regarding the 
potential of research in space to improve our public's health.

    Senator Nelson. Thank you, Dr. Katz.
    Dr. Scott Pace is the Director of the Space Policy 
Institute, and he's a Professor of the Practice of 
International Affairs at the George Washington University. His 
experience includes service in the Department of Commerce, the 
National Space Council, the RAND Corporation, the White House, 
and, most recently, within NASA.
    Welcome, Dr. Pace.

STATEMENT OF DR. SCOTT PACE, DIRECTOR, SPACE POLICY INSTITUTE, 
ELLIOTT SCHOOL OF INTERNATIONAL AFFAIRS, THE GEORGE WASHINGTON 
                           UNIVERSITY

    Dr. Pace. Thank you, Mr. Chairman. It's an honor to be 
here. And thank you for the opportunity to discuss this 
important topic.
    As has been remarked in the opening, there's really no 
question about the importance on unmanned space activity, 
whether GPS or communication satellites and so forth. But, I 
would suggest that the future of human space exploration is in 
the balance, and therefore it'll be the focus of my remarks.
    Last week I attended an annual conference of the 
International Astronautical Federation in Daejeon, South Korea. 
The President of South Korea actually came and spoke at the 
opening ceremony and said that, quote, ``Space technology is 
the growth engine that will open the future of mankind. It has 
become a necessary tool for our own survival.'' And it was very 
striking to see the excitement of space activity there in 
Korea. International representatives from Europe and Asia 
presented their own plans for exploration of the Moon and 
missions to Mars.
    There is an impressive spirit of international cooperation, 
not only among our Space Station partners, but also with other 
space powers, such as India and China. And China, in 
particular, was particularly open with its plans for activities 
in exploration beyond low-Earth orbit.
    Now, this spirit has been in development for the last 
several years based upon a U.S. diplomatic strategy that 
resulted in 14 space agencies approving a global exploration 
strategy so that people would be moving out together in 
coordination, something pretty unique in space history.
    And, unfortunately, I have to say that the internal U.S. 
debate, this past summer, combined with the realities of the 
Fiscal Year 2010 NASA budget, have created an air of 
uncertainty over U.S. intentions. And to borrow a phrase from 
Mr. Augustine, ``You know, it's hard to get others to work with 
you on your garden if you're pulling up flowers to check the 
roots.'' This is a time when other countries are looking to us 
and asking what are we going to be doing.
    And I think it's important that, in looking to the future, 
that we have to be actively planning for what comes after the 
ISS. I completely agree with Dr. Katz's comments on the 
importance of ISS as a National Lab. The continuation of 
Station operations, I think, is absolutely critical to get the 
value out of the investment this Nation has made. But, if we're 
not planning for what comes after the ISS, the government is, 
in effect, getting out of the human spaceflight business. 
Because if we're not going beyond low-Earth orbit, I would 
suggest that we are ignoring both the recommendations of the 
Columbia Accident Investigation Board and also running against 
the reality of globalized space activity, the number of other 
countries that are looking to work with us.
    In moving forward in all areas of space activity, we will 
be needing to build friends and allies around us in what 
Secretary Clinton has called a ``multipartner world.'' We need 
friends and allies to secure the global commons of space upon 
which we all depend for our national security, our economic, 
and our diplomatic interests, to make sure the space 
environment remains free of interference. I have to say, 
nothing focuses the mind in the space debris community than the 
idea that there may be risks to astronauts aboard the Space 
Station. Unmanned satellites are one thing, humans are another. 
And that has focused attention on the need to keep that 
environment as pristine as we can to secure our own interests.
    We need to inspire a new generation of Americans to take on 
many of the demands of a globally competitive environment 
driven by scientific and technical innovation. And therefore, I 
think the conference in Korea kind of underlined that energy.
    The interdisciplinary demands of spaceflight, whether in 
biomedicine or engineering and physics, and in human 
spaceflight in particular, I think can be a highly effective 
school as we're driven to do things that are unusual and 
different that we're not going to do here at home, but that, by 
doing them in space, we will learn new skills that will help us 
be competitive.
    And finally, I have to say that it's important to 
understand that it's not just our machines that we send to 
travel into space, but the values we carry with us, that the 
international norms for human space activity will be shaped by 
those who are there in space; they will not be shaped by those 
who stay behind. If we want to be--see a part of the human 
future in space that reflects our values--this country's 
values, the values of our allies--then we have to be a part of 
that effort. And ambitious goals and rhetoric require difficult 
actions and serious resources or the symbolism in actuality of 
human spaceflight will ring hollow. The United States is facing 
a generational transition away from the period represented by 
the Space Shuttle, and this transition is upon us now, both at 
home and abroad, as we see that others are not delaying their 
entries into space. And we have to ask what this Nation will 
do.
    Thank you very much for your attention, and I'd be happy to 
answer any questions at your convenience.
    [The prepared statement of Dr. Pace follows:]

Prepared Statement of Dr. Scott Pace, Director, Space Policy Institute, 

    Elliott School of International Affairs, The George Washington 
                               University
    Thank you, Mr. Chairman, for providing an opportunity to discuss 
this important topic. Understanding the value proposition of space, 
from low-Earth orbit to geosynchronous orbit, to the Moon and beyond, 
is of fundamental importance to many national interests. Our national 
security and public safety, global economic competitiveness and 
scientific capabilities, are all reliant on access to space and space-
based capabilities. There is no question as to the important of 
unmanned space activity, but the future of U.S. human space exploration 
is in the balance and will be the focus of my remarks today.
Globalization and Space
    Last week I attended the annual meeting of the International 
Astronautical Federation in Daejeon, South Korea. There was a statute 
of South Korea's first astronaut, Yi So-Yeon, on the main boulevard. 
The President of South Korea, Lee Myung-bak, spoke at the opening 
ceremony and said, ``Space technology is already being applied in 
various areas of our daily lives. Space technology is the growth engine 
that will open the future of the mankind, and it has become a necessary 
tool for our own survival.'' Representatives from Europe, Japan, 
Russia, China, India, and Korea presented their increasingly specific 
plans for explorations of the Moon and missions to Mars.
    NASA also presented current U.S. plans for replacing the Space 
Shuttle, and the images of the hardware being built and tested were 
quite impressive. Just as impressive was the expressed spirit of 
international cooperation and coordination, not only among 
International Space Station partners, but rapidly rising space powers 
such as India, China, and Korea. This spirit has been in development 
for 3 years, based on an inclusive U.S. diplomatic strategy that 
resulted in 14 space agencies agreeing to a common Global Exploration 
Strategy.
    Let me quote from that strategy:

        Space exploration follows a logical set of steps, starting with 
        basic knowledge and culminating, it is hoped, in a sustained 
        human presence in space. This journey requires a variety of 
        both robotic and human missions. The Global Exploration 
        Strategy provides a framework to coordinate the efforts and 
        contributions of all nations so that all may participate in the 
        expansion into space and benefit from it.

    Unfortunately, the internal U.S. debate this past summer, combined 
with the realities of the Fiscal Year 2010 NASA budget have created an 
air of uncertainty over U.S. intentions. To borrow from Norm Augustine, 
it's hard to get others to work on a garden if we're pulling up flowers 
to check the roots. It's hard for many of our international friends to 
secure support for human spaceflight from their governments if we 
appear to have doubts about the value of the effort.
    The United States is a founding member of the space club, but we're 
at risk of shifting to emeritus status while others with more energy 
step up. The Chinese in particular have laid out a careful, logical 
approach in which they plan to launch a mission in 2011 to test docking 
and rendezvous techniques, followed by a man-tended laboratory in 2015, 
and a three-man space station by 2020. The selection of 45 new 
taikonauts is underway along with plans for a lunar sample return 
missions and Mars orbiter by 2013. To be clear, I welcome peaceful 
Chinese space exploration efforts. However, I don't want them and other 
nations to be on the frontier of space without us. We may not be in a 
race, but we need to keep up.
    The Apollo program was intentionally a unilateral U.S. effort. The 
whole point was to beat the Soviet Union to the Moon. The Space Shuttle 
included international contributions such as the Canadian robot arm and 
a European Spacelab. The space station began as a U.S.-centered 
international effort but evolved into the fully integrated partnership 
that is the International Space Station (ISS) today. After the loss of 
the Columbia, sustaining the ISS would not have been possible without 
the international partners.
Questions for Space
    Today, we have the Global Exploration Strategy as an international 
common approach to human and robotic exploration of the Moon, Mars, and 
beyond. As I noted at the beginning, there is no question about the 
practical, scientific, and even diplomatic value of space exploration 
and this is recognized by other spacefaring nations as well. What about 
humans in space? That is the key question for our Nation's civil space 
policy.
    What are the questions that will drive and sustain a human space 
exploration effort, if nation are not beating each other in cold war-
like competitions for prestige?
    Challenger forced the question of whether we should risk humans 
flying payloads that could be launched in other ways. The answer was no 
and we moved satellites to expendable launch vehicles operated by 
private companies.
    Columbia forced the question of why are we risking humans at all. 
The Columbia Accident Investigation Board (CAIB) said that travel 
beyond Low-Earth Orbit was necessary if we were to justify the risks 
involved. The current U.S. Space Exploration Policy, past NASA 
authorizations by Congress, and Global Exploration Strategy are 
consistent with the views of the CAIB.
    If we are not planning for what comes after the ISS, the government 
is, in effect, getting out of the human spaceflight business. There may 
be space tourists launched by U.S. companies--I certainly hope so--but 
tourism cannot sustain a major international cooperative human space 
exploration effort. If we are not going beyond low-Earth orbit, we are 
ignoring both the recommendations of the CAIB and the reality of the 
increasing globalization of space activity.
    We should take a page from our science colleagues in asking simple, 
but profound questions to shape an implementation strategy. In science, 
questions such as ``Does life exist elsewhere in the solar system?'' or 
``What is dark energy?'' help shape and sustain scientific strategies 
and programs over long periods.
    What is the question for human spaceflight? I believe it's asking 
whether there is a human future beyond the Earth.
    Dr. Harry Shipman posed two questions in his 1989 book Humans in 
Space whose answers lead to very different human destinies. The first 
is, ``Can extraterrestrial materials be used to support life in 
locations other than Earth?'' And the second is, ``Can activities of 
sustained economic worth be carried out at those locations?'' Or as I 
shorten it: ``Can we live off the land?'' and ``Can we make it pay?''
    If the answer to both questions is yes, we will see space 
settlements and the incorporation of the Solar System into our economic 
sphere as former Science Advisor Jack Marburger has suggested. If the 
answer is no, then space is a form of Mount Everest--good for personal 
challenge and tourism but nobody really lives there. Other answers 
might see Antarctica-like outposts or perhaps a North Sea oil platform 
exploiting space resources but without sustainable human communities in 
space.
    Many people seem to have faith-based answers to these questions but 
I would suggest a greater humility in admitting that we don't really 
know. And therefore our efforts should be to answer these questions as 
in the course of human and robotic exploration beyond the Earth. The 
quest to do so will teach us much of practical benefit as we seek to do 
things that are hard. The experiences we gain in exploration will give 
us new insights into what humans can do and who we are.
Value from Space
    The practical benefits of sending humans beyond the Earth are the 
``acceptable reasons'' of supporting national interests in science, 
technology development, and international relations. For many 
countries, these reasons are not just ``nice to do'' but serious 
reasons of state. For India, ambitious space efforts attract new human 
capital to the strategic aerospace sector, which must compete with a 
growing information technology industry. For China, human spaceflight 
experiences are training a new generation of technical specialists in 
many fields and raising the quality level of industrial suppliers. For 
Japan and Europe, space flight demands interdisciplinary skills that 
can increase competitiveness in aerospace and non-aerospace sectors. 
The sophisticated systems engineering demanded by human space flight 
are part and parcel of what a great nation does, and more importantly, 
what it is capable of doing.
    Human spaceflight is the most demanding space activity, 
technically, financially, and organizationally. From the beginning it 
has also been the most symbolic activity, both at home and abroad. In 
the past, it responded to the question of who we were as Americans in 
the cold war. Today, it is a powerful symbol of cooperation among 
former adversaries on the International Space Station. The deep 
international relationships built through the ISS are among its most 
impressive and perhaps most enduring achievements to date.
    The question of whether there is a human future beyond the Earth 
will not be answered in a decade or five decades. It is a question that 
will evolve, challenge, confound, and test us for a long time as we try 
to answer it.
    For the future, we need to continue efforts to bind friends and 
allies to us in a multi-partner world in which space capabilities are 
globalized.
    We need friends and allies to help secure the global commons of 
space upon which we depend, to ensure that the space environment 
remains free of interference and open to peaceful uses by all.
    We need to inspire a new generation of Americans to take of the 
many demands of a globally competitive environment driven by scientific 
and technical innovation. The interdisciplinary demands of space flight 
and human space flight in particular can be a highly effective school 
for meeting those challenges.
    It is not just our machines or even our DNA that travel into space 
but our values as well. What values to we want to see be the norm in 
human activities beyond low-Earth orbit? The international norms for 
human space activity will be shaped by those who are there, not by 
those who stay behind. If we want to see a human future in space that 
reflects our values then we must be part of that effort.
What will the United States do?
    Ambitious goals and rhetoric require difficult actions and serious 
resources or the symbolism and actuality of human spaceflight will be 
hollow. The President is critical to effectively setting space policy 
priorities in budget requests to the Congress. All Presidents have put 
their stamp on the Nation's space efforts, from Kennedy and Nixon to 
Clinton and Bush. Their actions have typically reflected the broader 
international approach the United States seeks to play in the world.
    The United States is facing a generational transition away from the 
period represented by the Space Shuttle that is just as profound as the 
transition from Apollo was. We are facing a transition not just of 
hardware and contracts, but also of leadership and values. The 
transition is upon us at home and abroad, just as we see that others 
are not delaying their entries into space. What will this Nation do?
    Thank you for your attention. I would be happy to answer any 
questions you might have.

    Senator Nelson. Thank you, Dr. Pace.
    Dr. Lennard Fisk is the Thomas Donahue Distinguished 
University Professor of Space Science at the University of 
Michigan, where from 1993 to 2003 he was Chair of the 
Department of Atmospheric, Oceanic, and Space Sciences. From 
2003 to 2008, he was the chair of the National Academy of 
Sciences Space Studies Board. Before he came to the University, 
he was the distinguished Associate Administrator for Space 
Science and Applications at NASA. Professor Fisk is the author 
of more than 160 publications on energetic particles in plasma 
phenomena in space.
    Welcome, Dr. Fisk.

              STATEMENT OF LENNARD A. FISK, Ph.D.,

 THOMAS M. DONAHUE DISTINGUISHED UNIVERSITY PROFESSOR OF SPACE 
                SCIENCE, UNIVERSITY OF MICHIGAN

    Dr. Fisk. Thank you very much, Mr. Chairman and members of 
the Subcommittee. I also appreciate very much being able to 
testify on this topic of the case for space.
    I'd like to base my remarks, in large measure on this 
National Academy's report that we just issued, ``America's 
Future in Space: Aligning the Civil Space Program with our 
National Needs.'' And in that report, we addressed the issue of 
civil space taken in its entirety; and so, let me begin by 
defining ``civil space,'' as I want to use it in my remarks.
    Civil space is all aspects of space that are not pursued 
for military purposes. And so, it's going to be NASA and it's 
going to be NOAA, it's going to be commercial space, and it's 
even going to be the civil use of military assets, such as 
Senator Hutchison noted, of the GPS signals, of which we are 
all quite dependent.
    If you take civil space in this broad context, civil space 
occupies a central position in the American way of life and our 
national goals. And you can make a long list here. It assists 
our everyday lives; GPS being an example--weather forecasts, 
communication satellites, direct broadcasting--all those items 
that--on which we are quite dependent. You can argue 
convincingly, I think, that it helped create the globalized 
world in which we live. We have an economy these days which is 
global. We do business worldwide. In part, that has resulted 
because we have knowledge of other societies and comfort in 
investing in them in a way we would not have if we did not have 
the information that comes through communications satellites 
and remote-sensing satellites and all the infrastructure of 
space.
    It--civil space program satisfies our innate curiosity 
about the majesty of the universe. It will help determine the 
future of the Earth. It can drive the development of technology 
on which our economic future depends. It inspires us to believe 
that tomorrow can be better than today. It's an essential 
component of our national image, and it helps us--makes it 
possible for us to be strategic leaders in a world full of 
challenges.
    Well, given that centrality of civil space, it sort of 
makes you wonder why it is we have to defend its value. And, as 
Senator Vitter noted, I suspect part of that is this lack of 
appreciation results because space is now endemic in our 
society. It's pervasive in our daily lives and our national 
identity; and so, we no longer, perhaps, appreciate or fully 
recognize its value, as a result.
    It's also true that we're not particularly well organized 
as a Federal Government to fully realize the benefits that 
civil space offers our society. So, one of the key 
recommendations of the America's Future in Space report is that 
the President of the United States should task senior Executive 
Branch officials to align the agencies and the departments 
involved in civil space--align their strategies, identify the 
gaps in the program, and identify the shortfalls in policy 
coverage, policy implementation, and, in particular, in 
resource allocation.
    The America's Future in Space report also recommended that 
we should--whether it's through policy implication and resource 
allocation, we should actually formulate, and we should 
execute, a civil space program in the United States that is 
closely aligned with, and clearly serves, our national needs.
    We need a civil space program that allows us to protect the 
Earth and its inhabitants through the use of space research and 
technology. The global perspective of space, which is enabled 
by space observations, will be essential to monitor climate 
change.
    We need a civil space program that allows us to pursue 
scientific inquiry, advancement of knowledge, which is, 
frankly, fundamental to a Nation's health. A Nation that asks 
questions about the universe and wants to learn is a richer 
Nation.
    We need a civil space program that develops advanced 
technologies. We need a civil space program that actively 
pursues human spaceflight, extending the human experience into 
new frontiers, challenging technology, bringing global 
prestige, and exciting the public's imagination.
    And the standard that we should hold our human spaceflight 
program to is not just, ``What is everybody else doing?'' but 
it should be held to the same standard that we expect for the 
rest of our civil space program; it should be transformative in 
its cultural impacts, in its scientific impacts, in its 
technology outcomes. That's the standard that we should hold 
our human spaceflight program to.
    We need a civil space program that inspires current and 
future generations. We need a civil space program that allows 
us to pursue international cooperation in space proactively as 
a means to enhance U.S. strategic leadership and meet national 
and international goals.
    Now, there are impediments in this which are called out in 
this report, and we have to recognize them. One of them, cited 
a moment ago, was the lack of cohesive and coordinated national 
space strategy. We also need a competent technical workforce 
and a properly sized and structured infrastructure.
    And so, if I were summarizing what my remarks and what this 
report said, it's basically that the civil space program of the 
United States has a central role in our society today and our 
goals as a nation. The role, however, is not often recognized 
or appreciated, and, as a result, our civil space program is 
not adequately coordinated, nor are its priorities properly 
aligned with pressing national needs with adequate resources 
provided, nor are its deficiencies recognized and removed. And, 
of course, the goal is to reverse that situation, to construct 
a civil space program that is truly aligned with, and capable 
of serving, the national needs; and when we do so, America does 
have a future in space; but, even more important, space can 
help ensure America's future.
    Thank you.
    [The prepared statement of Dr. Fisk follows:]

    Prepared Statement of Lennard A. Fisk, Ph.D., Thomas M. Donahue 
  Distinguished University Professor of Space Science, University of 
                                Michigan
    Mr. Chairman and members of the Subcommittee, I appreciate very 
much the opportunity to testify on the important topic of the Case for 
Space: Examining the Value. My name is Lennard Fisk, and I am the 
Thomas M. Donahue Distinguished University Professor of Space Science 
at the University of Michigan. I also served from 1987 to 1993 as the 
NASA Associate Administrator for Space Science and Applications, and 
from 2003 to 2008 as the Chair of the National Research Council Space 
Studies Board.
    My remarks today will be based in large measure on the recent 
National Academies Report: America's Future in Space: Aligning the 
Civil Space Program with National Needs,\1\ which was Chaired by Gen. 
Les Lyles (Ret.), and for which I served as one of the Vice Chairs. My 
remarks, of course, are entirely my own.
---------------------------------------------------------------------------
    \1\ America's Future in Space: Aligning the Civil Space Program 
with National Needs, report of the National Research Council Committee 
on the Rationale and Goals of the U.S. Civil Space Program, published 
October 2009.
---------------------------------------------------------------------------
    I would like to talk today about civil space in its entirety, and 
so let me begin by defining civil space. For my purposes, civil space 
is all aspects of space that are not pursued for military purposes. It 
is the space activities of NASA and NOAA. It is all of commercial 
space: communication satellites, remote sensing satellites, and the 
many entrepreneurial activities that are now blossoming. It is also the 
civil use of military assets such as the commercial use of the signals 
from Global Positioning Satellites (GPS).
    Taken in this broad context, the civil space program of the United 
States touches the lives of every American, each and every day. We are 
dependent upon GPS signals for transportation; we coordinate our 
telecommunication networks, Internet infrastructure and electric grid 
and financial systems through the timing signals available from GPS. 
Our weather forecasts are based upon satellite observations. We have 
information on what is happening everywhere in the world at all times, 
in large measure due to satellite communications and observations.
    Indeed, we can argue that the globalized world in which we live, 
where manufacturing is worldwide and economies are thoroughly 
intertwined, was able to develop because of space. The knowledge that 
we have about other societies and our ability to communicate 
instantaneously, transmitted through satellites, have given us a level 
of comfort to invest throughout the world. And because of this we live 
in a safer world, where now many nations have a vested interest in each 
other's success.
    We also live in a world of challenges, one of the main ones being 
global climate change. Whether or not you agree on the causes of 
climate change, nonetheless we must all accept that the climate of 
Earth is changing, and the outstanding question is what are the 
regional consequences to which we must prepare to adapt. The Department 
of Defense has stated that global climate change is a strategic threat 
to the United States, in recognition that climate change in the 
developing world can be de-stabilizing, and lead to increased threats 
from, for example, terrorism.
    The knowledge of global climate change and its regional 
consequences will come uniquely from the civil space program. 
Comprehensive observations from the global perspective of space will be 
required. We may enter into treaties limiting fossil fuel emissions and 
other contributions to the greenhouse gases in the atmosphere. Only the 
global perspective of satellite observations will allow us to monitor 
compliance by the treaty signatories. ``Trust but verify'' will work 
equally well in climate treaties as it did for treaties limiting 
nuclear weapons.
    We also live in a world of opportunities. We have the capabilities 
these days to use our civil space program to ask and to answer very 
fundamental questions about the universe in which we live: what is the 
origin, the evolution, and the destiny of our Sun, our solar system, 
and the universe beyond. Is there life elsewhere in the universe? Do we 
not also, as a rich and powerful nation, have the obligation to seek 
and to provide these answers on behalf of all humankind?
    Our economy is reeling and the clear way forward to long-term 
economic growth and job creation is investments in innovative 
technologies. The civil space program can require the development of 
technologies that benefit the economic growth of the Nation and it can 
unleash and encourage the entrepreneurial spirit on which the American 
economy is founded.
    Our human space flight program has been able to inspire us to 
consider the endless opportunities of space. It also plays an important 
geopolitical role. Space has been and will always be the playground on 
which developed nations demonstrate their technological prowess. Our 
position in the world is in part determined by what we are able to 
accomplish in space.
    Indeed, our entire civil space program permits us to define the 
image we wish to project as a nation. There are a growing number of 
nations with capabilities in space, and so dominance by the United 
States is no longer likely, nor for that matter desirable. Rather, we 
can use our civil space program to exert strategic leadership, in which 
we lead by example and in cooperation, and are valued in the world for 
what we are able to accomplish on behalf of all humankind.
    Our civil space program can also make us more secure. We have 
military assets in space, which are judged to be vulnerable. It is 
reasonable to assume that they will be safer if space becomes a routine 
place for science and for commerce, just as rules-of-the-road make our 
oceans a lawful, not a lawless domain.
    Our civil space program thus occupies a central position in the 
American way of life and our national goals. It assists our everyday 
lives; it helped create our globalized world; it satisfies our innate 
curiosity about the majesty of the universe; it will help determine the 
future of Earth; it can help drive the development of technology on 
which our economic future depends; it inspires us to believe that our 
tomorrows will be better; it is an essential component of our national 
image, and helps make it possible for us to be a strategic leader in a 
world full of challenges.
    Given the centrality of the civil space program to our way of life 
and national goals it is somewhat troubling that we need to defend its 
value. I suspect this lack of appreciation results in part because 
space is now endemic in our society. It is so pervasive in our daily 
lives and national identity that we no longer fully recognize or 
appreciate its presence.
    It is also true that we are not organized as a Federal Government 
to fully realize the benefits that our civil space program offers the 
Nation. ``National space policy is too often implemented in a stovepipe 
fashion that obscures the connection between space activities and other 
pressing needs of the Nation. Consequently, the senior policymakers 
with broad portfolios have not been able to take the time to consider 
the space program in the broad national context. Rather, policies have 
been translated into programs by setting budget levels and then 
expecting agencies to manage to those budgets.'' \2\
    Thus, one of the key recommendations of the America's Future in 
Space report is that ``the President of the United States should task 
senior Executive Branch officials to align agency and department 
strategies: identify gaps or shortfalls in policy coverage, policy 
implementation, and resource allocation; and identify new opportunities 
for space-based endeavors that will help to address the goals of both 
the U.S. civil and national security space programs.'' \2\
    The America's Future in Space report further recommends that we 
should, through policy implementation and resource allocation, 
formulate and execute a civil space program in the United States that 
is closely aligned with and clearly serves our national needs. The 
service to national needs is the basis on which our national investment 
in civil space has and ought to be made. We have entrusted the future 
of our Nation and our sense of wellbeing as a people to the performance 
of our civil space program, and we need to insure that our investments 
in civil space are adequate and the emphases that we place best serve 
our national needs.
    We need a civil space program that allows us to protect the Earth 
and its inhabitants through the use of space research and technology; 
that employs the global perspective enabled by space observations to 
monitor climate change and test climate models, to help manage Earth 
resources, and mitigate risks associated with natural phenomena such as 
severe weather and asteroids. ``NASA and NOAA should lead in the 
formation of an international satellite-observing architecture of 
monitoring global climate change and its consequences and support the 
research needed to interpret and understand the data in time for 
meaningful policy decisions.'' \2\
---------------------------------------------------------------------------
    \2\ Quoted from the NRC report: America's Future in Space: Aligning 
the Civil Space Program with National Needs.
---------------------------------------------------------------------------
    We need a civil space program that allows us to pursue scientific 
inquiry and advancement of knowledge, which are fundamental to a 
nation's health: ``the results inform and excite the public, stimulate 
technology development, create an interest in learning, and generally 
improve the capability of the Nation to compete and to lead. A nation 
that asks question about the universe and wants to learn is a richer 
nation.'' \2\
    We need a civil space program that develops advanced technology, 
``engaging the best scientific and engineering talent in the country 
wherever it resides in universities, industry, NASA centers, or in 
other government laboratories.'' \2\ The research conducted should 
address the needs of the Nation's entire space portfolio, both 
government and industry, and by doing so encourage the economic 
development of the Nation.
    We need a civil space program that actively pursues human 
spaceflight, ``extending the human experience into new frontiers, 
challenging technology, bringing global prestige, and exciting the 
public's imagination.'' \2\ The criterion by which we judge our human 
spaceflight program should not be based upon the capabilities or 
aspirations of other nations. Rather, our human spaceflight program 
should be held to the same standard we apply to the rest of our civil 
space program: ``It must be capable of producing transformative 
cultural, scientific, commercial or technical outcomes.'' \2\
    We need a civil space program that inspires current and future 
generations; ``that builds upon the legacy of spectacular achievements 
to inspire our citizens and attracts future generations of scientists 
and engineers.'' \2\ We live in a world of many immediate concerns, 
from a weakened world economy, to regional conflicts and global 
terrorism, to threats of the consequences of climate change and limited 
energy sources. ``A vigorous civil space program provides a strong 
signal that our future as a nation is promising; that life can be 
better; that our prospects are boundless.'' \2\
    We need a civil space program that allows us to pursue 
international cooperation in space proactively as a means to advance 
U.S. strategic leadership and meet national and mutual international 
goals. ``Space is viewed by many countries of the world as global 
commons, a resource not owned by any one nation but crucial to the 
future of all humankind. Indeed, human beings around the world view 
space not just as a place, but rather as symbolic of the future itself. 
Thus, for the U.S. to exert strategic leadership there is no venue more 
special than space. True strategic leadership will be achieved not by 
dominance, which in many cases is no longer possible, but by example 
and in cooperation with other nations. In addition to protecting those 
activities in space that are judged to be essential to U.S. national 
interest, and for which the United States must be an undisputed leader, 
there should also always be concern for the larger world and for how 
the United States is viewed as a benevolent nation with foresight and 
determination to make a better world for all humankind.'' \2\
    We need to recognize also that there are impediments to the success 
of a civil space program that best serves the national needs, and these 
will need to be overcome. There is the impediment cited above of the 
lack of a cohesive and coordinated national space policy that ensures 
that all participants have the capabilities, whether by policy or 
through resource allocation, to serve their functions in this broad 
national endeavor. There are also impediments at the foundational 
level.
    There is need of a competent technical work force, ``sufficient in 
size, talents and experience to address difficult and pressing 
challenges.'' \2\ The aerospace work force, which serves the needs of 
both civil and military space, needs to be replenished, as part of a 
broad national effort to ensure that the Nation has the technical 
workforce necessary to maintain our competitive position in the world 
and that serves the needs of our people.
    There is a need for a properly sized and structured infrastructure, 
which makes effective use of the full capabilities that the Nation has 
assembled to conduct its civil space program, whether in NASA centers, 
universities, industry, or other national laboratories. ``The health of 
the institutional infrastructure is in question. NASA still maintains 
10 large centers, as legacies of the much larger Apollo program more 
than 40 years ago. Responding to funding limitations and associated 
political pressures, NASA has elected to focus its support on its own 
centers. As a result, the broad national capabilities in universities 
and in industry have atrophied and are under utilized--in some 
instances imperiled--with serious consequences for U.S. capabilities 
for future innovation. In the case of universities, where research and 
education are pursued synergistically, the proper training of the 
aerospace workforce is in jeopardy.'' \2\
    There is a need for a foundation of ``sustained technology advances 
that can provide the development of more capable, reliable, and lower-
cost spacecraft and launch vehicles to achieve space program goals.'' 
\2\ ``Yet, because of budgetary pressures and institutional priorities, 
NASA has largely abandoned its role in supporting a broad portfolio of 
advanced technology development for civil space applications, and the 
space technology base has been allowed to erode and is now deficient.'' 
\2\
    In summary, the civil space program of the United States has a 
central role in our society today, and our goals as a nation. This 
role, however, is often not recognized or appreciated, with the result 
that our civil space program is not adequately coordinated; nor are its 
priorities properly aligned with pressing national needs, with adequate 
resources provided; nor are its deficiencies recognized and removed. 
The goal of course is to reverse this situation, to construct a civil 
space program that is truly aligned with and capable of serving the 
national needs. When we do, America does have a future in space, and 
even more important, space can help assure America's future.

    Senator Nelson. Thank you, Dr. Fisk.
    Dr. Jeanne Becker is the Vice President, institute 
Associate Director, and Chief Scientist for the National Space 
Biomedical Research Institute. Dr. Becker is currently serving 
as the Chair of the National Advisory Committee for the Women's 
Health Research Coalition. She's also a member of the Society 
for Gynecologic Investigation and a member of Women in Bio. She 
has served with NASA and the NIH. Dr. Becker is also the 
recipient of NASA's Space Life Sciences Directed Professional 
Achievement Award.
    Welcome, Dr. Becker.

        STATEMENT OF JEANNE L. BECKER, Ph.D., ASSOCIATE

  DIRECTOR, NATIONAL SPACE BIOMEDICAL RESEARCH INSTITUTE AND 
                 CHIEF SCIENTIST, ASTROGENETIX

    Dr. Becker. Thank you so much--oh I did. OK.
    Chairman Nelson, I'm very honored to be here. I'm kind of a 
nuts-and-bolts sort of person, and so I'm going to get to some 
very tangible points. But, before I do that, I want to tell you 
and your committee a little bit of history.
    For my entire career, I've been involved in applying space-
based biomedical research to on-Earth applications and 
problems. I started out my career as an Assistant Professor at 
the University of South Florida College of Medicine in Tampa, 
and that's where, with stars in my eyes, I got involved in 
bioreactor work, developing 3-D models for breast and ovarian 
cancer. That work continues to this day, and I want to update 
you that, actually, two patents have been filed on a companion 
technology that is pushing that toward commercializing a 3-D 
assay for determining cancer cell sensitivity. So, we're very 
proud of that.
    I was also there on June 22, 1993, testifying--having the 
opportunity to testify before Chairman Hall's Subcommittee when 
the vote to even build a Space Station passed by one. And that 
was a very exciting time, and I remember it like it was 
yesterday. And now I have the opportunity to talk to you about 
the work that I'm involved with, with development of a 
salmonella vaccine based on changes of that organism in space, 
as was alluded to before. We all know about salmonella. It's a 
terrible problem with food poisoning, but it's also a major 
cause of childhood death in Third World countries. Salmonella 
has been investigated early on in spaceflight, and it was shown 
that the organism actually becomes more virulent--that is, 
increases its ability to cause disease--when it's cultured in 
the environment of space. As a group, we--we formed as a group, 
based on that basic science finding, to actually come forward 
with a commercial initiative, and we have a terrific team 
formed. The principal investigator is Dr. Timothy Hammond, and 
the work actually started out of his lab at Tulane University, 
and recently was transferred to where his current institution 
is, at Duke/VA Hospital.
    The hardware that we use to perform these experiments is 
provided by Dr. Louis Dodiak and his group, at BioServe, who 
have been phenomenal. And the funding, which we couldn't have 
done any of this without, is provided by a parent company, 
Astrotech--you might know them as SpaceHab, by their former 
name--and they have a privately-held venture called 
Astrogenetix, and Tom Pickens is the CEO of that. And he has 
got a lot of his father's characteristics, in that when he sees 
something that he believes is going to work, he goes for it. 
And so, they've been a terrific funding partner for us.
    We're very fortunate to do this kind of work, because NASA 
has given us opportunities as a manifest on every remaining 
Shuttle flight. And so, I'm proud to report to you that we have 
actually accomplished six payloads in a period of 18 months, 
which, to those that haven't done it--and I know you've been 
involved in some of that yourself, Chairman Nelson--that's a 
lot of work. And we wouldn't be keeping on with this work 
unless we saw tangible results. And, the fact is, what happens 
in space happens in space. So, we're not just conducting 
research in microgravity; we're using what happens in space to 
answer questions. There's a big difference there. It's not just 
experiments we do up there; it's--we do them because changes 
occur in microgravity that you don't see here on Earth, changes 
in gene expression and protein expression of organisms that 
uncover new ways of identifying targets that you can find for 
therapeutics, for vaccine development, for new kinds of 
antibiotics and therapies that do not exist here.
    Our initial work with salmonella allowed us to, in fact, 
identify a target for vaccine development. And right now we're 
pursuing that, and we're writing up an investigational new 
drug, an IND application, that will be submitted to the FDA 
based on this work.
    We've been able to fly eight organisms, and we see 
remarkable changes in all of them. One of them is of particular 
interest that we're targeting for future development, and 
that's Methicillin-resistant Staph aureus, or MRSA. And, in 
fact, we're getting ready to fly on STS-129 that will launch in 
November, and MRSA will be the payload on that flight.
    So, I'll stop there, but I'm happy to answer all your 
questions. And again, thank you so much for the opportunity to 
be here.
    [The prepared statement of Dr. Becker follows:]

  Prepared Statement of Jeanne L. Becker, Ph.D., Associate Director, 
   National Space Biomedical Research Institute and Chief Scientist, 
                              Astrogenetix
    Chairman Nelson, Ranking Member Vitter and distinguished members of 
the Subcommittee, thank you for the opportunity to speak to you on the 
benefits and applications of space based research. I have the privilege 
of serving as the Associate Director of the National Space Biomedical 
Research Institute and also the Chief Scientist for Astrogenetix, which 
has supported the International Space Station National Laboratory 
Vaccine Pathfinder missions. For the hearing today, I was asked to 
address two areas: (i) the potential benefits and applications of my 
research, and (ii) what makes the space environment unique.
    For the duration of my academic career, I have been involved in 
applying results gained from space based research to on-Earth 
biomedical problems. My initial research experience with NASA based 
technology began in the early 1990s, with studies focused on three 
dimensional growth of human tumors, using the NASA-developed Rotating 
Wall bioreactor. This device was originally invented so that cells 
could be grown under conditions mimicking reduced gravity, and could be 
transported into space avoiding the harsh shear forces of launch and 
landing. The calm and quiescent culture environment provided by this 
device allows cells to assemble into large three dimensional 
aggregates, closely resembling the way cells grow within the human 
body. The three dimensional growth of tumor cells in this Rotating Wall 
bioreactor has proved to be remarkable for a number of reasons. As 
compared to the traditional means of growing cells flat, in a Petri 
plate, tumor cells cultivated in the bioreactor grow faster, are more 
biologically representative of native cancer tissue (that is, look and 
behave more like real human cancer) and are more aggressive, in that 
they become significantly more resistant to anti-cancer drugs. For 
example, the same dose of the chemotherapeutic agent taxol that kills 
breast or ovarian tumor cells in a Petri plate will not kill all the 
cancerous cells in these three dimensional clusters. The cancer cells 
in the three dimensional aggregates which are still alive following 
exposure to taxol then continue to grow, mirroring what happens in 
patients who fail chemotherapy. Ultimately, three dimensional growth of 
human tumor cells can be used as a way to more reliably test new drugs 
and other types of therapies before they are administered to patients, 
to give physicians a better first line of defense in determining which 
treatments will work for their patients.
    Over the course of nearly two decades, the scientific literature 
has become filled with publications demonstrating the fidelity and 
usefulness of the Rotating Wall bioreactor for three dimensional 
culture of a wide variety of both normal and cancerous cells. However, 
taking a different perspective, if the Rotating Wall bioreactor is so 
effective at producing an environment which can replicate conditions in 
the body, is it necessary to conduct research on cells and tissue grown 
in space? One answer to this question can be found in the work of Dr. 
Leland Chung, the principal investigator for an experiment that 
launched on STS-107. The objective of this work was to characterize the 
interaction of prostate tumor cells and bone tissue by conducting a co-
culture experiment in a bioreactor aboard the space shuttle. Although a 
tragic accident destroyed the crew and shuttle, data downlinked during 
the flight showed that within 3 days, the clusters of prostate cancer 
cells and bone had become the size of golf balls, relative to the same 
experiments conducted in the bioreactor on the ground, which showed 
three dimensional clusters one-eighth of an inch in diameter. An expert 
in prostate tumor biology, Dr. Chung maintains that this experiment had 
produced one of, if not the, best model of prostate cancer-bone 
interactions. This is an important accomplishment since advanced stages 
of prostate cancer commonly spread to bone making treatment options 
challenging and highly limited. Based upon the work of scientists like 
Dr. Chung, as well as my own personal experiences, I believe that we 
need experimentation in all types of environments, modeled 
microgravity, true microgravity and the 1G that we live in, to gain 
insight into how forces like gravity affect cell function and growth. 
We must utilize all options available for advancing the knowledge 
necessary to find new ways of treating devastating diseases, such as 
cancer. The International Space Station (ISS) is a critically important 
platform necessary to advance this science--there is no other means of 
conducting work in a sustained microgravity environment. ISS is the 
only laboratory of its kind.
    Research in microgravity has also contributed to important advances 
in microbial biology. Previous space flight studies of the bacteria 
Salmonella enterica demonstrated that growth of this organism in the 
microgravity environment resulted in significantly enhanced virulence 
in mice when the space-grown bacteria were returned to earth and 
injected into the animals. Taking advantage of this knowledge, we 
reasoned that if the cause of the increased virulence could be 
identified, that is, targeted to a specific gene or set of genes, then 
a vaccine for this organism could potentially be developed. In order 
for a vaccine to be effective, it must be strong enough to induce an 
immune response in the host and strong enough to provide protection 
against future exposure to Salmonella, but weak enough to allow 
administration with no risk of illness, that is, it must not make the 
host sick. Working with the principal investigator for these studies, 
Dr. Timothy Hammond, we pursued development of a Salmonella vaccine 
using strains of the bacteria which were genetically altered to remove 
key genes associated with virulence, yet were still able to induce a 
good host immune response. A key factor for these investigations was 
the establishment of a host-pathogen model that would allow us to 
examine how the bacteria interact with, and infect, the host within the 
microgravity environment. For this, we developed an in-microgravity 
assay whereby the genetically altered bacteria are grown in the 
microgravity environment, then mixed with a tiny worm host, 
Caenorhabditis elegans. Interestingly, C. elegans exhibits many 
similarities with humans in their immune response to bacteria, making 
this a good model system. The model works because C. elegans normally 
ingest bacteria as a food source. After the bacteria and worms interact 
on-orbit, the process is terminated and then returned to earth for 
determination of microbial virulence. If the bacteria are virulent, 
after being ingested by the C. elegans the bacteria kill the worm host, 
and continue to grow. If the bacteria are not virulent (that is, the 
removal of genes took away their ability to kill their host), the worms 
simply ingest the bacteria and the bacteria are removed from the 
system, so they cannot continue to grow. In post-flight analysis, 
altered bacterial strains not exhibiting virulence, due to the knock-
out of specific gene(s), are potential targets for vaccine development. 
These investigations are made possible because of an extensive team 
effort, using the robust flight hardware and expertise provided by 
BioServe, under the leadership of Dr. Louis Stodieck and the funding 
provided by Astrogenetix.
    To date, six flight studies have been conducted over a period of 18 
months, and we are preparing for our next payload on STS-129 scheduled 
for launch in November of this year. We have successfully identified a 
gene target and a vaccine for Salmonella enterica is under development. 
This work has partnered academia and government with industry for the 
development of a commercial vaccine product based on results obtained 
in microgravity, and serves as a pathfinder mission to validate the use 
of ISS as a National Laboratory, that is, as a research and development 
platform, after station assembly is complete. As such, NASA has 
designated these flights as ISS National Laboratory Pathfinder missions 
and has provided a manifest on each of the remaining shuttle flights to 
enable iterative science to be conducted, as is necessary for tangible 
product development. Currently there is no Salmonella vaccine available 
for human use. Aside from being among the most common causes of food 
poisoning world-wide, Salmonella is a major cause of childhood death in 
Third World nations.
    A variety of medically important microbes have been tested in the 
C. elegans model and the system has worked well. Recently initiated 
follow-on experiments are focused on the use of microgravity to 
identify targets for the development of therapeutics for methicillin 
resistant Staphylococcus aureus, or MRSA. In the past decade, infection 
and mortality due to this organism has increased drastically, exceeding 
the death rate for HIV. In this country alone, MRSA is responsible for 
100,000 cases of severe infections and 19,000 deaths annually. Although 
once predominantly confined to the hospital environment, this organism 
is fast becoming a major problem outside hospitals, and community 
acquired MRSA is on the rise.
    To summarize the accomplishments of this work:

  <bullet> The findings made in space are the product of fundamental 
        research.

  <bullet> Multiple successful spaceflight payloads have been conducted 
        with industry support.

  <bullet> A lead product, a vaccine for Salmonella, is in development 
        based upon results obtained in microgravity.

  <bullet> Work with additional microbes is ongoing, for future 
        pipeline development.

    The ability to support and maintain investments made in ISS will 
require an ongoing commitment but also comes with the expectation that 
significant gains and advantages will come about as a result of the 
resources allocated. One important question to ask regarding the 
development of therapeutics using ISS as a platform is how exactly can 
using space change drug development on earth? Currently, the research 
and development pipeline for a single agent may take years of work to 
allow identification of viable candidates for pharmaceutical 
applications. At the end of this period, the possibly exists that the 
candidate agent is not suitable for continued development. The time, 
money and resources expended getting to this point could be minimized 
by using a process which identifies promising agents or drug candidates 
earlier in the development pipeline, for quicker testing to evaluate 
downstream efficacy and market potential. Using space, years may be 
eliminated from research and development pipeline activities, to allow 
for fast-tracking of promising agents, and termination of unsuccessful 
agents at earlier time points. In this manner, ISS may be not only a 
one-of-a-kind laboratory resource for the development of new and sorely 
needed pharmaceutical and therapeutic products, but could facilitate 
the generation of an entirely new kind of biotechnology industry based 
upon discovery in microgravity.
    Outside of my own research, in my role as associate director of 
NSBRI, I have the opportunity to facilitate the work of over 180 
investigators at 60 institutions across the country. The research of 
these scientists is also aimed at making advances in the space 
environment and applying this knowledge to benefit life on earth. From 
new technologies for noninvasive health monitoring, to advanced 
training techniques in areas such as ultrasound, to enhanced lighting 
devices to counteract fatigue, this work leverages the academic 
resources of our Nation's top tier institutions and the Federal funding 
of agencies such as the National Institutes of Health and the 
Department of Defense. The continued accomplishments of this body of 
work are strongly dependent upon the maintenance of ISS as a National 
research enterprise.
    Mr. Chairman and members of the Subcommittee, in closing, I want to 
again extend my appreciation for affording me this opportunity to 
discuss the benefits and applications of research conducted in the 
space environment. At this critical time when National resources are 
hard fought, I sincerely believe that investments made in the 
International Space Station will yield tremendous benefits for new 
discovery to enhance health on earth. Vital to these successes are the 
collaborations and efforts of academia, industry and government, 
working together with your strong support. I would be pleased to answer 
any questions that you may have.

    Senator Nelson. Thank you, Dr. Becker.
    And when, for example, the Vasomer engine is attached to 
the Space Station in 2013, it will obviate the need to bring up 
fuel to keep boosting the Space Station, because it will have a 
continuous pulse. It will take the Station from microgravity, 
because of the drag, to near-zero gravity, which will all the 
more enhance your experimentation.
    Dr. Becker. Absolutely.
    Senator Nelson. Our CEO of the panel is Ms. Greiner, Co-
Founder of the iRobot Corporation, has served as President 
since 1997. She served as Chairman of that company from 2004 to 
2008. Under her leadership, iRobot is delivering robots to the 
industrial, consumer, academic, and military markets.
    I want you to explain these little devices, and what 
they're doing for the military that came out of our human space 
program.
    Her 15 years of experience in robotic technology includes 
work at NASA's Jet Propulsion Laboratory and MIT's Artificial 
Intelligence Laboratory. She was named the Ernst & Young New 
England Entrepreneur of the Year, a Technology Review Magazine, 
Young Innovator of the Next Century, and one of World Economic 
Forum's Global Leaders of Tomorrow.
    Welcome, CEO Greiner.

        STATEMENT OF HELEN GREINER, CEO, THE DROID WORKS

    Ms. Greiner. Well, thank you. Since my Ph.D. is honorary, I 
won't use it while sitting next to the real thing. So, thank 
you for that introduction. I'm honored to speak here today.
    I am also serving as a Trustee for MIT, the Boston Museum 
of Science, the National Defense Industrial Association, and 
the Association for Unmanned Vehicle Systems International. I'm 
serving also as the elected President of the Robotic Technology 
Consortium, which is an industrial consortium that has the top-
tier defense contractors, top universities and nonprofits, and 
over 120 small businesses. We have members in two-thirds of the 
states, and many of these companies and universities are funded 
to do space research by NASA. So, in other words, as you heard 
from my--the introduction, I'm an engineer, an entrepreneur, 
and I'm active in representing the robotics community.
    So, my own career and the history of iRobot Corporation are 
inextricably intertwined with NASA. I was an intern at NASA's 
Jet Propulsion Laboratory, where I worked on manipulators for 
satellites. And this internship provided me with the 
opportunity to learn from NASA engineers, some of the best in 
the world, and also provided me the funding that I needed to 
obtain an advanced degree from MIT.
    When I graduated, I founded iRobot with Rob Brooks and 
Colin Angle, and NASA helped us. They helped us by purchasing 
some robots; specifically, an 18-Degree-of-Freedom Walking 
Robot and some tract robots. They were our very first sales. 
And I asked the program managers at NASA, a decade later, why 
they bought these robots, and their response was telling. They 
said, ``We wanted to make sure an industrial base developed in 
robots.'' A lot of deep thinkers at NASA.
    So, in addition, the iRobot Corporation is actually based 
on work that was funded by NASA at the Massachusetts Institute 
of Technology Artificial Intelligence Lab in the 1980s, and 
this research developed a new type of robot control that we 
call ``behavioral control.'' And behavioral control is modeled 
on insects, because insects can get around anywhere, and they 
don't have large computational assets; in fact, they have these 
little bitty brains. And so, that kind of control system is 
also the kind of control system you need on a robot when it 
goes out to explore Mars or one of the further planets.
    So, this groundbreaking work was one of the threads leading 
to the successful Sojourner Mars' Exploration Mission, but here 
on Earth it's also being used. This funding changed the 
paradigm in the way that robots are designed, and it currently 
runs on the iRobot Roomba Vacuuming Robot. And the Roomba--in 
case you haven't heard about it, we hope you have--they're 
small, completely autonomous vacuuming robots. And iRobot has 
now sold 3 million of them, which makes it the best-selling 
practical home robot in the world. So, you can go out and buy 
these spinouts of space technology at Costco, Target, and many 
other stores.
    But, 50 percent, as Chairman Nelson alluded to, of iRobot's 
business comes from military and law enforcement. In 1997, the 
Defense Advanced Research Project Agency, or DARPA, started a 
program to build tactical mobile robots. And NASA, iRobot, and 
others worked on this program. NASA brought their technology to 
bear on the iRobot PackBot System, and, likewise, we spun 
technology from this program back into NASA in, for example, 
the lightweight rugged wheels that are used on the next set of 
Mars' rovers, Spirit and Opportunity.
    The PackBots were first deployed in combat in 2002, and 
they were used to clear the caves in Afghanistan. Before the 
PackBots got there, they were actually tying ropes around the 
soldiers' waists and sending them into the caves. You know, 
there could be boobytraps, the last occupant was possibly an 
enemy combatant, and these robots are currently being used to 
remediate improvised explosive devices. So, the--one of the 
deadliest threats to our troops are these roadside bombs. And 
the PackBots now have been credited with the military with 
saving the lives of hundreds of soldiers and thousands of 
civilians. And because of this success, with team members from 
iRobot, NASA, DARPA, and the iRobot PackBot was inducted into 
the Space Hall of Fame in 2006, which we are very proud of.
    So, because of these small investments that were made by 
NASA, the U.S. is leading the world in robot products. So, from 
autonomous vacuums to floorwashers to warehouse robots, to 
military robots, the U.S. has sold more robots than any other 
country. And it's entrepreneurial companies like iRobot and, my 
new company, The Droid Works, that are creating jobs and 
ensuring America's leadership in the global innovation economy. 
NASA funding is a national competitiveness issue.
    So, in conclusion, at just--less than 1 percent of the 
Federal budget--NASA is not just exploring the planets, 
including planet Earth, but also supporting the next generation 
of engineers through internships, supporting entrepreneurs 
through their small business programs and other contracts, 
supporting cutting-edge research at universities, supporting 
our technology industrial base, and developing lifesaving 
technology. So, that's just less than 1 percent of the budget. 
NASA funding is a proven investment in U.S. competitiveness.
    Thank you.
    [The prepared statement of Ms. Greiner follows:]

       Prepared Statement of Helen Greiner, CEO, The Droid Works
    My name is Helen Greiner. I am currently the CEO of a startup 
company called The Droid Works. I received my Bachelors Degree in 
Mechanical Engineering and Masters Degree in Electrical and Computer 
Sciences from the Massachusetts Institute of Technology. Between 1990 
to 2008, I co-founded and served as President and later Chairman of 
iRobot Corporation, a company that went from an apartment based startup 
to a publicly traded company and is a worldwide leaders in robot 
product sales and cutting edge robotics research. I currently serve as 
a trustee for MIT, the Boston Museum of Science, the National Defense 
Industrial Association, and the Association for Unmanned Vehicle 
Systems International. I also serve as the elected President of the 
Robotics Technology Consortium, an industrial and academic consortium 
of 179 companies including top tier defense contractors, top 
universities and non profits, and over 120 small businesses--we have 
members from over 2/3 of the states. In other words, I am an engineer, 
entrepreneur, and active in representing the robotics industry.
    My own career and iRobot's history is inextricably intertwined with 
NASA. I was an intern at NASA's Jet Propulsion Laboratory where I 
worked on manipulators for satellites. This internship provided the 
opportunity to learn from NASA engineers and the support that I needed 
to pursue an advanced degree. Upon graduating, I founded iRobot in 1990 
with Rod Brooks and Colin Angle, and NASA helped by purchasing robots 
from us--specifically an 18 degree of freedom walking robot and two 
portable tracked robots our very first sales. I asked a decade later 
why NASA bought them and the response was ``we wanted to make sure that 
an industrial base developed in robotics''. In addition, iRobot 
Corporation is based on work that was funded by NASA at the 
Massachusetts Institute of Technology's Artificial Intelligence Lab in 
the 1980s--this research developed a new type of control for robots 
called Behavior Control. Behavior Control is modeled on insects that 
can easily navigate in unstructured environments--even though they lack 
large computation assets--in other words, they have little bitty 
brains. Behavior Control mimics how insect control systems work and was 
implemented on insectoid robots such as Genghis and Attila. This ground 
breaking work was one of the threads leading to the successful 
Sojourner Mars exploration mission. Here on earth this NASA funded 
paradigm has changed the way robots are designed. This NASA research 
grant funded the fundamental robot intelligence paradigm that currently 
runs on the iRobot Roomba Vacuuming Robot. The Roomba, in case, you 
haven't seen them, are small completely autonomous vacuuming robots. 
iRobot has now sold over 3 Million Roombas, making it the best selling 
practical home robot in the world.
    Fifty percent of iRobot's business comes from military and law 
enforcement. In 1997, the Defense Research Projects Agency started a 
program to build Tactical Mobile Robot. iRobot, NASA, and others worked 
on this program. NASA brought their technology to bear on the iRobot 
PackBot System and likewise iRobot technology was spun back into NASA 
in, for example, the lightweight rugged wheels for the second set of 
MARS rovers, Spirit and Opportunity. The PackBot Robots were the first 
ground robot deployed in combat in 2002 to provide initial entry into 
the remote caves of Afghanistan where the Taliban were hiding their 
weapons caches. They took the place of tying ropes around our soldiers 
and sending them in to face enemy combatants and booby traps. Currently 
PackBot's are being used to remediate Improvised Explosive Device, or 
roadside bombs, which are the deadliest threat to our troops in Iraq 
and Afghanistan. PackBots have been credited by the military with 
saving the lives of hundreds of soldiers and thousands of civilians. 
Because of this success, with team members from iRobot, DARPA, and 
NASA, the iRobot PackBot was inducted into the Space Technology Hall of 
Fame in 2006.
    Because of the small investments made by NASA, the U.S. is 
currently leading the world in robot products. More robots from 
autonomous vacuums to floor washers to warehouse robots to military 
robots have been designed and sold by U.S. companies than any other 
country. The entrepreneurial companies, like iRobot Corporation, that 
make this happen are creating jobs and insuring America's leadership in 
the global innovation economy. NASA funding is a national 
competitiveness issue.
    So in conclusion at just $17.2B or just \1/2\ of 1 percent of the 
Federal budget, NASA is not just exploring the planets (including 
planet earth), but also supporting the next generation engineers 
through internships, supporting entrepreneurs through their Small 
Business program and other contracts, supporting cutting edge research 
at universities, supporting our technology industrial base, and helping 
develop life saving technologies. That's just \1/2\ of 1 percent of the 
budget. NASA funding is a proven investment in U.S. competitiveness.

    Senator Nelson. Thank you, Ms. Greiner.
    I'm going to withhold my questions so my colleagues can ask 
questions.
    Senator Vitter?
    Senator Vitter. Thank you very much, Mr. Chairman, 
particularly since I'm going to have to excuse myself in a few 
minutes.
    Sitting here listening to all of this, I thought of maybe a 
great tag line for the hearing. It's the opposite of Vegas: 
What happens in space doesn't stay in space.
    Senator Nelson. There you go.
    Senator Vitter. I'll consider some more ideas. You're 
obviously not----
    [Laughter.]
    Senator Vitter.--quite ready to put that on the cover of 
the hearing testimony yet.
    Dr. Katz, thanks for your specific examples of developments 
that have very real use here on Earth, particularly in the area 
that involves the NIH. Now, some folks would say, ``Well, 90-
plus percent of that sort of stuff can be done without human 
spaceflight. And, perhaps, that is where we have to refine the 
argument and target the argument the most, as other panelists 
have alluded to, is human spaceflight.'' How would you respond 
to that, particularly with your NIH experience in mind?
    Dr. Katz. Well, thank you very much for that question.
    The reality is that much of what we've learned with regard 
to basic biology has impacted on human spaceflight. So, for 
example, astronauts regularly exercise to have high-impact 
exercise so that their--and we know that bones are stimulated 
to increase their production rather than their destruction, in 
terms of keeping muscles and bones going. That doesn't obviate 
the bone loss, but it obviates it to a certain extent.
    My focus--the focus of my discussion was really on the 
utilization of the Station as a National Laboratory, and 
obviously there have to be people up there who are doing the 
experiments; the experiments don't go on their own. So, whether 
it was a bioreactor, as Dr. Becker talked about, a bioreactor 
with human cells or with experimental animal cells or with 
bacterial or viruses, those types of experiments need to be 
done by people who are in space on the Station.
    So, if I understand your question correctly, ``Do we need 
humans in space to do these types of experiments?,'' yes we do.
    Senator Vitter. OK, thank you, Doctor.
    And, Dr. Pace, a lot of your testimony was about 
international cooperation in space, and that's sort of obvious 
with the concept of the International Space Station. It's not 
as obvious when we look at next-generation activity, at least 
as it has been mapped out before this Administration. Assuming 
that architecture stays roughly the same, what do you think is 
the appropriate role of international partners and cooperation? 
How would you suggest we properly develop that role?
    Dr. Pace. Well, I think that--it's a wonderful question. 
And I think that current exploration program actually 
represents a maturation over several years of U.S. space 
efforts. I mean, the Apollo program was obviously a unilateral 
U.S. effort. That was the whole point, in terms of beating the 
Soviet Union. The Space Shuttle had international contributions 
from Canada and Europe, in the case of the Space Lab. The Space 
Station is a true international partnership, as we all know.
    When looking at the exploration strategy that has been laid 
out over the last several years, the architecture itself is 
something that's being developed in collaboration with the 
other major space agencies. So, there are international lunar 
architectures--there's a Mars sample return architecture--that 
are being discussed among all the agencies on the basis of deep 
collaboration from the beginning.
    So, I think that the model is already there. And I think 
that the question really becomes--is, What are the roles that 
each of the various countries are going to play? I think 
sometimes there's an assumption that if the U.S. is not playing 
a strong role, that other countries will come fill the vacuum. 
I don't think that's really quite true. I think that if other 
countries don't see the U.S. as a strong partner and a strong 
leader, that they themselves will have, maybe, second doubts 
about it, and will not necessarily fill that vacuum.
    On the other hand, many countries have decided that being 
in space is important for their economy, for their security, 
and for their citizens. And they are moving out into space; and 
I think it's important that we be present with them to shape 
that future environment.
    So, I think we have partnerships ready to go, I think there 
is a moving interest in space; and therefore, I think this is 
really our opportunity to lose if we don't step up.
    Senator Vitter. OK, thank you, Doctor.
    Dr. Fisk, to get the proper national strategy you were 
talking about, what sort of organizational changes do you think 
we need to look at within the Federal Government, particularly 
the relevant executive agencies? And then, personally, I'm 
hoping you're not going to use the term ``space czar'' in any 
part of you answer, but----
    [Laughter.]
    Senator Vitter.--I'll leave that up to you.
    Dr. Fisk. No. Well, certainly not, Senator.
    [Laughter.]
    Dr. Fisk. No.
    Well, let me make a couple of comments. In this report that 
I referred to, we thought it was presumptuous of us to try and 
organize the Federal Government, which is probably not possible 
anyway.
    But, if you say, ``Who has the mandate in this?'' it's 
probably the President's science advisor and the national 
security advisor. Those are the people for whom space is 
important in the White House.
    So--and I don't think you ever want to reorganize the 
Federal Government on an agency level. There's too much baggage 
and overhead associated with that for anything productive to 
happen.
    But, if you look at the highest levels of the government--
the Director of OMB, the President's science advisor, the 
national security advisor--you get them together and you say, 
``OK, this is what is important for the Nation in space. We 
recognize that civil space touches all parts of our society and 
our national image, and, you know, how we will deal with our 
foreign policy, how we will deal with other nations, how we 
will deal with all these things.'' And then you ask yourself, 
``OK, do we have a coordinated activity in Space--and are--
there funding gaps in this?'' There are obvious funding gaps; 
we talk about them here. But, if those funding gaps can be 
filled, in recognition of the role that agency and program 
plays in this broader national agenda, then I think we create 
something which is capable of serving the national need.
    Senator Vitter. But, Doctor, just to quickly follow up, 
don't you think for that to happen and to continue to happen--
versus a, you know, sort of one-time push--there needs to be 
some structural mechanism to make sure it keeps happening? I'm 
not saying redo a bunch of agencies, but----
    Dr. Fisk. Right.
    Senator Vitter.--but at least have some continuity?
    Dr. Fisk. Well, there has always been discussion of 
resurrecting the Space Council, in some sense. But, you have to 
do it differently than it was done before if you do that, 
because before, it was viewed by many of the participants--and 
some of this, you know, is from my time at NASA--as more 
impediment than help. And so, the question is, Can you create 
something that actually assists in producing this coordinating 
activity? It's obviously a challenge, right? Because if you 
have something that is so pervasive in your society, you don't 
want a space czar, because that's too limiting; you want some 
mechanism in the White House that is capable of the 
coordination. I think, in large part, you have to examine how 
the White House actually works today, which is well beyond 
either my paygrade or knowledge. But, it seems to me the 
President should set something up that makes it effective in 
however he is choosing to run the many dimensions of our 
society. You recognize space as just as important as other 
aspects that are--the White House is trying to coordinate, and 
use a similar mechanism to produce the coordination for space.
    Senator Vitter. OK.
    And my final question for Dr. Becker and Ms. Greiner, to 
sort of go back to the same topic as for Dr. Katz. In the work 
you highlighted, the tangible results we've seen here on Earth 
related to space activity, how much of that work absolutely 
depended on humans in space versus nonhuman space activity?
    Dr. Becker. All of our work, with doing Pathfinder vaccine 
work, has required crew to be trained so that they can start 
the hardware and so that they can stop the hardware. And 
without that, we could not have done these studies. It's that 
simple.
    Senator Vitter. OK.
    Ms. Greiner?
    Ms. Greiner. And we build robots, so--but I would like to 
just add that the, you know--sometimes you can't predict where 
innovation is going to end up. No one would have predicted that 
the work that was targeted for, you know, having remote 
exploration of the Martian services would result in robotic 
vacuums. And, you know, we're not going to be able to predict 
everything, but when you have these large national efforts that 
are developing technology, there are going to be lots of 
tangible benefits that really can't be predicted up front. 
There are ones that can be predicted up front, like what we've 
heard about in medicine, but there's going to be so much more 
that comes out of it that can't be predicted up front.
    Senator Vitter. Thank you.
    Thank you, Mr. Chairman.
    Senator Nelson. As I ask a series of questions of you all, 
I want you to be thinking about, at some point, I will want 
each of you to talk about examples of the tangible benefits 
from the space program, specifically the human space program, 
and the intangible benefits.
    I'll start in reverse order, with you, Ms. Greiner. In your 
testimony, you obviously had this personal relationship with 
NASA, and it was an enabler for you to help you to reach where 
you are now. What will a properly funded NASA enable other 
entrepreneurial activities such as yours to do, what will 
happen in the next 10 years?
    Ms. Greiner. Well, both underfunding from NASA to small 
businesses, or even large businesses, and even companies that 
just look at what's going on in NASA, to commercialize the 
results in medicine, mechanics and materials, you know, that 
has been a very effective way for us to not have to start from 
scratch and develop all the technologies.
    I can tell you that, you know, it's happening a lot in the 
robotics community, and stories like mine are duplicated with 
entrepreneurs all over the country. We took iRobot from an 
apartment-based startup to a publicly-traded company that's 
creating jobs and keeping the U.S. ahead in this one particular 
field of robotic technology. And, you know, you can make lists 
of the number of companies that have gotten started by working 
with--you know, in conjunction with NASA, you'll find it's a 
large number that's adding to our economic base.
    Senator Nelson. You've seen these incredible wheelchairs 
that can climb stairs?
    Ms. Greiner. I certainly have. Dean Kemen's company.
    Senator Nelson. Did some of that technology come out of the 
space program?
    Ms. Greiner. I can't answer concretely, but I know that the 
space program has put quite a lot of effort into both the--you 
know, what's needed mechanically and electrically for autonomy, 
but also what's needed to make these space probes and make 
these rovers autonomous. Because when you are on a different 
planet, like Mars, the delays in the radio signals--you can't 
totally operate or control these robots from Earth. They really 
have to be on their own. And that technology feeds back into 
having these types of systems--like the robots for the 
military, the robotic vacuums, floor washers, warehouse supply-
chain management type of robots--right here on Earth.
    Senator Nelson. It has been suggested that NASA have a 
DARPA for these advanced projects. Do you think that would 
allow more entrepreneurial activity?
    Ms. Greiner. I'm not an expert in, you know, what's going 
on in those particular discussions, but I can tell you that 
having the kind of mechanism that DARPA has, you know, it works 
with DARPA, with the Internet being the primary example, 
because they're given the freedom of being able to, you know, 
not have constraints. They have the freedom to take risks. And 
you really need freedom to take risks to really push 
technologies to, you know, the next level; rather than just 
evolutionary design, really more revolutionary designs.
    Senator Nelson. Dr. Becker, Senator Hutchison had mentioned 
the alpha-magnetic spectrometer and the fact that, as you know, 
the big accelerator in Geneva, Switzerland, they haven't been 
able to get it going. The idea is to try to find out what is 
down in those subatomic particles that make up matter and 
energy and so forth. When we get the AMS up in space, which is 
going to be attached to the Space Station. By the way, that's 
to the credit of the President; he mandated an extra flight of 
the Space Shuttle to accommodate the AMS. They were not even 
going to fly this billion-and-a-half-dollar piece of 
experimentation equipment. It's sitting on the ground ready to 
go, and they weren't going to fly it. NASA wasn't going to fly. 
We're going to get that up, and then it's going to capture 
these atomic particles that are flying through space so that we 
can analyze them.
    There's a good example of human spaceflight, because it's 
made by humans, it's going to be taken up by humans, it's going 
to be put up there, and its results are going to be analyzed by 
humans. Who knows, we may get the same information that we'd 
get on Earth building an accelerator that's several miles 
around.
    In your written testimony, you state that the ISS is a 
critically important platform necessary to advance this science 
and that there are no other means of conducting work in a 
sustained microgravity environment. ``The ISS is the only 
laboratory of its kind,'' is what you state. In your 
experience, do you think the U.S. and its partners will see a 
substantial return on this rather enormous $100-billion 
investment?
    Dr. Becker. It's hard for me to answer that question--(a) 
because I'm not a physicist, I'm a cell biologist. And as a 
scientist, in general, it's hard to answer to questions about 
data outcomes without having data. And I think, to cutoff the 
possibility of not having that data, you can't even answer that 
question. So, I don't know about dollars, in terms of actual 
return on investment, but I do know that unless you do that 
work, you will not really answer that question. There's no 
other way to do it.
    There are many ways to simulate microgravity. There are 
various models. And there are some good models, and all of them 
have their positives and negatives. But, there's no true way to 
have sustained microgravity unless you go up there and 
experience it in the Station. There just isn't any other way. 
And when Station was passed, by that one vote, I was there, and 
I know that the arguments that were made that day were around 
science and they were around using this unique environment to 
answer questions we can't answer here, because we can't 
replicate that here. And so, let's build a laboratory like no 
other that will answer these questions. And now it's almost 
finished, and I've been waiting this whole time to be able to 
see work come out of that and to really utilize this amazing 
laboratory.
    The salmonella work we've done is a taste of, I think, what 
we can possibly see in the area of infectious disease, which is 
billions and billions of dollars, industry in this country. And 
the bugs are winning. And unless we find new ways to combat 
that, they will continue to win. If space can give us new 
answers and uncover new discovery and targets, we're obligated 
to go there for the citizens that live here on Earth.
    Senator Nelson. How far along are you in the process of 
developing a salmonella vaccine?
    Dr. Becker. We have reproduced the data several times. 
We're absolutely committed that we have the right gene target. 
We have filed patents. We are currently speaking to industry 
experts that help people write up investigational new-drug 
applications; we're doing that right now. And it's our full 
intent--being supported by industry, I might add. This is an 
academic-industry-government partnership. Without each of those 
factors, it wouldn't go forward, and so I really do want to 
give credit to each of the sectors that have made this work 
possible. We're really--we're pushing forward with IND 
submission.
    Senator Nelson. And you say it's because of microgravity 
that this strain of salmonella gets more virulent, and it's 
because of that fact that you can then develop a salmonella 
vaccine?
    Dr. Becker. What happens is the science--the basic science 
finding told us that the bacteria become more virulent. And so, 
as a group, we reasoned, If we can understand the genetic cause 
behind that virulence, if we can take that away, then perhaps 
we can create what's called, in jargon, in science words, an 
``attenuated vaccine,'' and that is a vaccine that induces a 
good immune response; it's strong enough to be administered, so 
all the parts of the immune system will see it and react; it's 
strong enough to protect against future exposure to salmonella, 
but it doesn't make the host sick. And what we did is, we 
pinpointed genes and we took--we knocked them out, and we sent 
up a series of genetically-altered bacteria with these genes 
knocked out, and, in fact, one of them took away the virulence 
effect while still maintaining the immune-response effect. And 
so, we made a home run. And that's what we're pursuing to get 
into testing on the ground to, in fact, see how it does 
clinically down the road.
    You know, one of the things that I want to bring to the 
attention of you and your committee is, what this potentially 
has done is streamlined a very, very lengthy process that might 
have been found on the ground, but would have taken years. I 
mean, we still don't have a salmonella vaccine, after all this 
time of trying to develop one.
    If that works for this organism, and if we see similar 
changes in other organisms, which is what we are seeing, it's 
very possible that this becomes attractive to pharmaceutical 
companies so they can identify, early on in their development 
pipelines, what is a viable agent for development and what is 
not. And ``the what is not'' part is just as important, because 
you can eliminate those possibilities early without spending 
time and effort and resources in developing them, only to get 
to a point where you realize this is not going to work.
    Senator Nelson. Did anything come of the growth of crystals 
in space. You're trying to grow a crystal that is more pure in 
zero G so that we could determine its molecular structure 
easier?
    Dr. Becker. I know for a fact that Tom Pickens is very 
interested in pursuing that avenue with this little venture, 
Astrogenetix--again, based on the space data. I know that there 
are arguments for and against what happened in space, in terms 
of the quality of the crystals that came out, but I think one 
thing that's important to remember is, these experiments were 
done either on Shuttle or were done in a situation where 
construction wasn't completed, which really impacts--the quiet 
environment is absolutely necessary for crystal formation, as 
you well know. And I'm not a crystallographer, but I do know 
that those discussions are happening now.
    Senator Nelson. If the ISS were abandoned in 2016, what 
potential research do you think would be unrealized?
    Dr. Becker. Would be unrealized? Honestly, I believe that 
we are on a threshold of creating a new kind of industry in 
biotechnology based on new discovery in microgravity. And I 
think that by eliminating the operations of the Station, that 
that would never fully be realized.
    Senator Nelson. It's only taken us 15 years to get here. 
We'd better now utilize what it has taken 15 years to build.
    Dr. Fisk, the National Research Council's report, America's 
Future in Space, made several recommendations. I'm picking up 
on your previous testimony. Let me just get down to the bottom 
line.
    You want to coordinate all these things, get the Executive 
Branch to task to align agency and department strategies. What 
about a National Space Council in the White House?
    Dr. Fisk. Let me--I'll answer this is just a sec.
    I wonder if you'd permit me to cycle back on one----
    Senator Nelson. Absolutely----
    Dr. Fisk.--issue here.
    Senator Nelson.--and it's open to any of you all. Please, 
chime in if you want to answer somebody else's question.
    Dr. Fisk. Well, it's--I want to make sure a thought isn't 
lost here someplace.
    Senator Nelson. Good.
    Dr. Fisk. Coordination is wonderful. I mean, we should 
coordinate. We should also fund. That's part of the dilemma we 
have. Whether it's because of lack of coordination or because 
of lack of appreciation, we do not fund our space program at 
the level that we should and therefore, it does not contribute 
to the national agenda as it could.
    And when we talk about human spaceflight and the use of the 
ISS, we should never forget how much damage has been done over 
the last few years because we have inadequately funded the 
human spaceflight program, and, as a result, the need to build 
the next generation after Shuttle, the Aries and Orion, and the 
priority which was attached to it--which I won't even dispute, 
one way or the other--but there has been enormous collateral 
damage in the rest of the human spaceflight program as a 
result.
    And when we talk about microgravity, don't forget the 
physical science side of microgravity, not just the biological 
side. That community has disappeared. We refer to it in the 
scientific community as ``scientific genocide'' on the part of 
NASA, because it was forced into this unfortunate budget 
situation that it had inadequate resources, and it needed to do 
something to replace the Shuttle, and it went where it could 
find some money. And the microgravity and physical science 
community suffered in this. The life science community suffered 
less, but it is nowhere near what it could be, in terms of 
payloads on the Space Station, if the resources had been there 
to do that.
    We talk about R&D and NASA's role in reaching out into the 
broader R&D community. Again, there was a price to pay for this 
inadequate funding, and one of the prices was concentrating the 
R&D activities on those things that were most germane to the 
new launch vehicle. They were higher TRL--as we say, 
``technical readiness level''--items because they were needed. 
And what do you sacrifice? You sacrifice the things at lower 
TRL levels, the things that may give you breakthroughs, that 
may spinoff into the rest of the economy because they weren't 
immediately applicable to the space program, which NASA has 
done in its past, but cannot now reasonably afford to do.
    And so, if we talk about how much money human spaceflight 
needs; Augustine gives recommendations and so forth. I hope 
somebody remembers that it's not just the price to pay for the 
new launch vehicle; it's also the price to pay for restoring 
the other parts of the human spaceflight program, which are of 
considerable value, which were sacrificed or wounded in the 
budget constraints that have existed over the last 4 years.
    Now, as for coordination and Space Councils, again I don't 
have a crystal ball. You said it in your opening remarks; the 
President has to decide. He has to decide what civil space 
program he wants, and he has to recognize the importance that 
it has in all of his agenda items--many of the national agenda 
items; and he has to send the direction out to the troops to do 
that, and his OMB has to be given the funds and so forth. And 
somebody has got to orchestrate that event somewhere in his 
organization.
    Different Presidents do it in different ways. We've had 
times of our history when the Vice President had a strong say 
in space program. We've had other times when that's less so, 
and so on. So, I think it's important that the President 
recognizes the national importance of this event and creates 
both an organizational structure and a funding situation that 
allows him to achieve the goals that he presumably will set for 
the program.
    Senator Nelson. I don't know to what degree they are 
seriously, down at the White House, thinking about a National 
Space Council.
    Dr. Fisk. I don't know, either. It was talked about in the 
campaign, but I have heard very little of it since then. And it 
may not be necessary. It may not be the appropriate vehicle. 
There are certainly a lot of reviews going on. That's always a 
sign of something, I guess. The President has directed the 
National Security Advisor to conduct a review of all of space. 
And you've got Augustine, and so on. So, presumably, the data 
comes in and somebody says, ``OK, let's do this.'' I mean, we 
at least have an Administration that is actively determined to 
solve all problems simultaneously. So, maybe they'll put space 
up there someplace; probably not ahead of healthcare or 
Afghanistan, but at least on the list.
    Senator Nelson. It better not be too far down the list.
    [Laughter.]
    Dr. Fisk. I certainly--you would not find any dispute in 
this room.
    Senator Nelson. Dr. Pace, what do you see as the primary 
impediment to having all of these policymakers down in the 
White House recognize that space pays dividends? I've written 
down specific things that you have talked about. I can talk 
until I'm blue in the face about them: heart pumps, fiber optic 
probes. I didn't know what a autonomous vacuum was, but I know 
what an autonomous vacuum cleaner is. You have excited me to 
want to go out and buy one.
    [Laughter.]
    Ms. Greiner. Go ahead.
    Senator Nelson. And just turn it loose----
    [Laughter.]
    Senator Nelson.--in the house.
    Ms. Greiner. I think that would be great.
    Senator Nelson. Tell me, Dr. Pace, what do you think?
    Dr. Pace. Well, I think there are a lot of obvious 
practical benefits that I think everyone deserves to understand 
and realize there are these specific issues out there. And I 
think that the dots that need to be connected are how space can 
support this Administration's priorities and values. The 
President has talked about a lot of things, in terms of our 
relationship with other nations of the world, talked about 
encouraging math and science education, talked about improving 
competitiveness, and yet, I think the frustration is, is that 
there has not been a recognition of the linkage that space can 
contribute to those issues. In fact, it's treated as sort of a 
very important, but still specialized, issue rather than the 
strategic issue that I think it is.
    As I'm listening to the discussions about the--what can be 
done with biomedical research aboard Space Station, I think of 
the fact that space is a strategic advantage for this country, 
in terms of innovation. That is, other countries are doing IT 
and nanotech and materials and lots of other things, and they 
are really quite competitive with us. So, what is a game-
changer for this country? A game-changer is something that 
really only we or a small number of countries are uniquely able 
to do, to go places and do things that no one else can, to be a 
leader among the great powers. And I think space is something 
that contributes to that.
    We understand how it does that in national security. I 
think we're starting to realize what it might mean for 
innovation, as exemplified by the ISS as a National Lab. And I 
think, in this post-Cold-War world, the importance of space as 
a tool for building relationships--if you--there's discussion 
about the CERN and the international cooperation that the CERN 
represents. Well, I would submit that there is no finer example 
of long-lived high technology challenging international 
cooperation--more complex, more technically difficult--than the 
International Space Station. The result of that--one of the 
primary products of Space Station today has been real, 
tangible, specific relationships between ourselves and other 
countries, at a working level, that would not have existed 
otherwise, and that has been--endured a number of different 
shocks to the system. That is a real, tangible value. It's not 
something that goes, you know, clunk on a desk, but it's 
something that affects relationships between countries, that 
binds them together. I think we ignore that.
    So, I don't think there's quite an appreciation of the 
strategic value of space. I think sometimes it's seen as 
something which is part of a science project, and therefore, 
the science advisor, who actually is quite knowledgeable and 
quite expert, I would say, on space issues--he alone can deal 
with these issues. And I would submit not, that really it is 
the national security advisor, the domestic policy advisors, 
maybe led by and coordinated by OSTP, that really kind of have 
to get into the game.
    Every President organizes his White House the way he sees 
fit. I wouldn't presume to suggest a Space Council is the right 
way to go. I was involved with the last one. I think it had 
some benefits, had some disbenefits. But, I think, this White 
House, the most important thing for it to do is to articulate 
how space connects to and supports their agenda and their 
priorities. Because, I think if they do that, they will be very 
pleasantly surprised at how useful a space regime can be.
    Senator Nelson. Well, Dr. Katz, I come back to you. Picking 
up on the idea that you talked about of the ISS as a National 
Laboratory. I am sure, especially after the Augustine 
Commission has said, ``Don't deorbit it in 2016, keep it going 
until 2020,'' that that's going to be one of the 
recommendations that will be implemented. So, we're going to 
have a decade in which to do research in the microgravity with 
a full-up laboratory.
    Look to the future. You're from NIH. Tell us, what are we 
going to discover? What diseases, what new treatments, what 
medications, what do you think?
    Dr. Katz. Well, I would build on Dr. Pace's point, that 
innovation is one of our great strengths. And bringing the NIH 
together with NASA enables a whole new group of scientists to 
utilize this laboratory, which is really unique. Whether it's 
microgravity or leads into zero gravity, as you said, it's 
unique.
    So many of our institutes have signed on to this initiative 
because they see something in the future that will benefit 
people on Earth. So, whether it's the Neurology Institute 
that--or the Deafness and Communication Disorders Institute--
that is interested in vestibular dysfunction, or motion 
sickness, or whether it's the Cancer Institute that's 
particularly interested in evasiveness or metastasis, these are 
all areas for exploration, and they have not really been 
pursued, and that's what, I think, this Memo of Understanding 
brings to the table.
    So, do I see many innovations? I do. We are preceding, 
along with our colleagues at NASA, in thinking that these 
experiments are going to go on for some years. So, basically, 
what we're doing is we are providing for 5-year grants and we 
are actually committed to three rounds of these on an annual 
basis. So, if you think about that, we're going out, now, 8 
more years, to 2017 or 2018. So, we think that this--that 
continuing doing experiments on the Station will enable this 
type of innovation, whether it's drugs that block invasiveness 
using these bioreactors, whether it's the development of new 
noninvasive imaging technologies that the National Institute of 
Bioimaging and Bioengineering is particularly concerned with, 
for remote sensing of abnormalities--biological abnormalities 
or physiological abnormalities that can be transmitted to Earth 
via very, very good signals, but using noninvasive imaging 
techniques, whether it's the new adaptation, as I mentioned, 
for motion sickness, or, in the case of our Institute and the 
Institute on Aging, to better understand why these organ 
systems, like bone and like muscle, dissipate so quickly. I 
mean, it's rather dramatic, and, as a consequence of what we've 
learned from space, or even simulated space on Earth--not as 
good as what goes on in the Station--we have learned about 
cells, how cells adapt themselves, and what we can do to try to 
obviate some of that adaptation or to block that adaptation.
    So, I think virtually every organ system--you've heard the 
advances that we will see as a tangible benefit with the fiber 
optic probe in identifying early crystal formation in the 
lens--it may be the same for other noninvasive diagnostic 
techniques.
    So, in the area of diagnosis, in the area of understanding 
pathophysiology, and in the area of understanding basic 
mechanisms of how our body works and how our cells work 
together, I think there'll be many advances in this area.
    Senator Nelson. The Augustine Commission is saying that 
we're basically flat if we don't get $3 billion more a year for 
NASA for the human spaceflight program; $30 billion over 10 
years. What happens if President Obama won't support this and 
the Congress cannot produce it?
    Any one of you.
    Dr. Pace. Well, we're not going beyond low-Earth orbit, 
which means that we'll be simply there at the Space Station. 
And a lot of useful things will still be accomplished at the 
Space Station, but the danger is, is that there's nothing that 
goes beyond that. Now, extending the Space Station for another 
couple of decades, that probably would be something that might 
be--even be worthwhile, and we'll have the data upon which to 
judge that. But, if we're not traveling beyond lower Earth 
orbit and we're not really exploring, then I think we're doing 
a disservice to the recommendations of the Columbia Accident 
Investigation Board, and I think we are ceding the future to 
others, who will move out maybe more slowly than we would, move 
out in a different way than we would, but I think it represents 
a stepping back of this country and an acceptance of a second 
position that I don't think that is in our long-range national 
interests.
    I would submit that the monies that--being talked about, 
additional $3 billion--a gradual increase--I don't think all 
that money has to show up in one lump sum, but building back to 
that level. The NASA budget today, if it was at the same level 
of constant dollars that it was in at the end of Fiscal Year 
1993, would be about $21 billion.
    So, we're not talking about an agency increasing, in 
constant-dollar terms, in some dramatic level. In fact, we're 
really talking about restoring some of the decline that has 
occurred over the last decade and a half. And I fully echo Dr. 
Fisk's point about making sure that you restore that funding so 
that the kind of triage that was necessary, or felt necessary 
in other areas of human spaceflight, doesn't have to occur. 
Because I think everyone did regret those losses. But, they 
were necessary and painful without more money.
    Senator Nelson. How so a disservice to the Columbia 
Accident Investigation Board?
    Dr. Pace. Well, this goes into the issue of questions. At 
the Challenger accident, the Nation asked a question about 
whether or not it was worth risking human life to send unmanned 
payloads into orbit. And the answer was ``no,'' and we shifted 
those payloads off onto expendable rockets.
    Columbia raised an even more profound question, which is: 
For what purposes is it worth risking human life? And the 
answer that they came back with was not a specific plan or a 
specific architecture, but saying that we need to be playing 
for high stakes. It cannot simply be that to occupy low-Earth 
orbit. And if we're not going to play for high stakes to answer 
questions such as: Does humanity have a future beyond the 
Earth?
    I mean, I think our science colleagues are really great at 
asking profound questions to which very, very detailed programs 
and strategies then result. I think a question for human 
spaceflight is, Does humanity have a future beyond the Earth? 
And the answer is either ``yes'' or ``no,'' both of which are 
profound. What that future might be, how it might be contained, 
is worth risking human life, but simply staying in low-Earth 
orbit--and, again, with all recognition of the Space Station--I 
don't think is really going to be significant. And I think that 
is the reason why we would do a disservice to the Columbia 
results.
    Senator Nelson. Dr. Fisk?
    Dr. Fisk. I'd liked echo a couple of thoughts. I view this 
as a watershed decision that we make as a Nation, because if we 
retreat, if we just say we confine ourselves to low-Earth 
orbit, we grant the high ground to whoever can get there from 
other nations. We can't just step back from human spaceflight. 
If we do we've stepped back from our image as a Nation as we 
have constructed it over 200 years, which is at the forefront, 
pressing the frontier, being a leader in the world, being a 
strategic leader in the world.
    And so, this is not a small decision based on $3 billion; 
this is a decision, I think, that is based upon what we view as 
the future of the Nation and its role in the world as a 
strategic leader. And if we wish to maintain that position, 
human spaceflight and all of the space program is an integral 
part of that--the basis for our strategic leadership. And we 
cannot--we shouldn't abandon it.
    Dr. Becker. I would----
    Senator Nelson. Dr. Becker?
    Dr. Becker.--I would like to echo very similar comments, in 
that, yes, our international colleagues will pursue with their 
initiatives, and they are looking to us to be a leader, but if 
we allow them to pursue with initiatives to go beyond low-Earth 
orbit, and we don't dedicate any resources to do so ourselves, 
we're not just a follower, we're a nonstarter. And I have to 
wonder, What kind of a message does that give to our young 
people in the country who are looking to be inspired and who--a 
lot of them now in schools are coming from other countries. And 
I--and for our own kids, what are we saying when we don't agree 
to explore, and what kind of limitations are we placing on 
ourselves as a nation?
    And one thing that I--that comes to mind is, we've been 
talking a lot about science on ISS, but there's also the kind 
of science that inspires children. And there was a study 
funded, actually by NSBRI, and it was to look at how spiders 
and butterflies grow in space. What kind of webs do the spiders 
spin? And two spiders were sent up there in separate cages. 
There was a big spider and a little spider--and, actually, the 
little spider was more aggressive--and there were bets placed 
on who's going to win if something happens. The big spider got 
out of its cage, and this made CNN headlines. It was amazing 
how many people--kids, adults, everyone--wanted to know what 
happened to the spider. And, eventually, the spider wound up in 
the other one's cage, but that's the kind--you can't plan that 
sort of inspiration and excitement. And that happened in low-
Earth orbit. I can only imagine what could happen beyond.
    Senator Nelson. I think you all have captured the essence 
of the character of the American people, that we are, by 
nature, explorers and adventurers, and we've always had a 
frontier. If we give up that pursuit, we become a second-rate 
nation. This is a decision that the President is going to have 
to make. From your advice, which we hope will be made known to 
the White House counsels, it has built a very strong case for 
us to proceed to explore the Heavens.
    So, thank you very much for this hearing.
    And the hearing is adjourned.
    [Whereupon, at 4:45 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
